                    Office of
United States
Department of
Agriculture

Office of
Inspector General
                    Inspector General
                    Semiannual Report
No. 46

December 2001




                    to Congress
                    FY 2001—Second Half
On the cover: The photos depict various aspects of the U.S. Department of Agriculture (USDA) mission. The American flag design
symbolizes the unity of the Nation’s populace, agencies, and functions in the aftermath of the terrorist attacks on September 11, 2001.
USDA photos.




The U.S. Department of Agriculture prohibits discrimination in all its programs and activities on the basis of race, color, national origin,
sex, religion, age, disability, political beliefs, sexual orientation, or marital or family status. (Not all prohibited bases apply to all
programs.) Persons with disabilities who require alternative means for communication of program information (Braille, large print,
audiotape, etc.) should contact USDA’s TARGET Center at 202-720-2600 (voice and TDD).

To file a complaint of discrimination, write USDA, Director, Office of Civil Rights, Room 326-W, Whitten Building, 1400 Independence
Avenue, SW, Washington, D.C. 20250-9410 or call (202) 720-5964 (voice and TDD). USDA is an equal opportunity provider and
employer.
Contents


In Focus: USDA and the Terrorist Threat .......................................................................................................... 1
Executive Summary ............................................................................................................................................. 3
Summaries of Audit and Investigative Activities .............................................................................................. 5
Protecting the Food Supply
   Audit Work To Improve Management of Protection of the Food Supply ............................................................ 6
   Investigations To Pursue Specific Threats ........................................................................................................ 7
Information Technology
   Audits To Strengthen USDA’s IT Security ......................................................................................................... 9
   Investigations Involving Abuse of IT Resources .............................................................................................. 11
Financial Management and Accountability
   Audits To Strengthen Financial Management and Accountability ................................................................... 13
   Investigative Work To Stem Financial Crime ................................................................................................... 16
Abuse of USDA Programs and Operations
   Public Corruption ............................................................................................................................................. 17
   Workplace Violence ......................................................................................................................................... 17
   Farm Programs ................................................................................................................................................ 18
   Crop Insurance ................................................................................................................................................ 20
   Nutrition Programs ........................................................................................................................................... 21
   Natural Resources and Environment ............................................................................................................... 22
   Rural Development .......................................................................................................................................... 23
Statistical Data
   Audits Without Management Decision ............................................................................................................. 25
   Indictments and Convictions ............................................................................................................................ 32
   Office of Inspector General Hotline .................................................................................................................. 33
   Freedom of Information Act and Privacy Act Requests ................................................................................... 34
Appendix I: Inventory of Audit Reports Issued
   With Questioned Costs and Loans .............................................................................................................. 35
Appendix II: Inventory of Audit Reports Issued
   With Recommendations That Funds Be Put to Better Use ........................................................................ 36
Appendix III: Summary of Audit Reports Released Between
   April 1 and September 30, 2001.................................................................................................................... 37
In Focus: USDA and the Terrorist Threat


The events of September 11 and the subsequent                 With cyberattacks on Government systems a continuing
anthrax attacks have given new urgency to issues of           problem, OIG has undertaken a growing number of
security over the U.S. Department of Agriculture’s            audits and reviews, as well as investigations of criminal
(USDA) infrastructure and the agricultural economy.           activity involving the Department’s computer systems.
Systems that ensure the protection of the Nation’s food       We have joined forces with the Chief Information Officer
supply have taken on even greater moment. The                 and agency information managers to enhance the
mission of the Office of Inspector General (OIG) is to        security of and protect the Department’s information
investigate allegations of crimes against the                 technology systems. As more and more Government
Department’s programs, and to promote the economy             programs come to depend on information technology for
and efficiency of its operations, with the object of          their delivery, this component of the Department’s
helping it protect its programs and ensure their integrity.   infrastructure has become the linchpin both of program
This experience in security matters and law                   integrity and of operational control. We have identified
enforcement uniquely positions OIG to help the                weaknesses in this component in the past, and we will
Department respond to the new and dangerous                   continue to make recommendations to ensure that the
environment introduced by the attacks on New York and         flow of information vital to the Department’s business
Washington. Consequently, within this current reporting       cannot be disrupted. Computer security will become
period, OIG has redirected its resources toward two           even more critical as the President’s e-Government
fronts—maintaining the integrity of Department                initiative, providing for on-line customer transactions, is
programs and helping the Department strengthen its            phased in, particularly in overseas areas where broader
defenses against activities that might threaten               foreign markets are being sought.
Government facilities, production agriculture, and the
Nation’s food supply.                                         In the aftermath of September 11, OIG’s law
                                                              enforcement efforts focused substantially on homeland
As events have unfolded, we found the Department              security. Special agents responded to an increased
singularly united in its response to the attacks. USDA        number of threats to USDA employees and facilities and
agencies have worked together and with OIG to protect         provided assistance to investigate the attacks in New
the food supply and to ensure that the Department             York. OIG assigned 32 special agents to counter-
continues to serve the needs of the farmer and the            terrorism task forces and to nationwide criminal
consumer. OIG has helped the agencies establish               investigations related to the events of September 11.
teams of dedicated personnel to respond to each               In joining the pursuit of suspected terrorists, we have
emerging crisis. The magnitude of this emergency and          matched the Federal Bureau of Investigation’s (FBI)
the importance of preserving the Nation’s food supply         “watch list” against databases available to the
from threats both domestic and foreign have placed            Department. We are also assisting the FBI in
enormous demands on the resources of the                      investigating agriculture-related issues. This
Department.                                                   assistance will continue.

Even before September 11, OIG was involved in                 Because disruption of the U.S. Government appears to
departmental efforts to ensure that animal and plant          be one goal of terrorism, we have heightened our
diseases from abroad did not infect agricultural              protection of the Secretary and joined in ensuring the
production in this country. At the outbreak of Foot and       continuation of USDA functions in the event of further
Mouth Disease (FMD) in Britain and elsewhere, we              assaults. We are accelerating our review of controls
began establishing emergency response teams to                over accidental or intentional release of biohazards,
investigate any similar threat to American livestock.         with an emphasis on the physical security of USDA
Team members traveled to the United Kingdom to gain           laboratories around the Nation where the Department
firsthand knowledge of the measures needed to counter         stores biological materials used in research and
any criminal activity involved in such an outbreak.           diagnostic work that could be harmful to plants and
Simultaneously, auditors in this country tested the           animals. Similarly, we are devoting increased resources
systems designed to prevent importation of any infected       to our reviews of controls over genetically engineered
meat products, while investigators intensified their          organisms, or GEOs, whose premature release into the
efforts to dismantle any smuggling operations that            environment in an untested state could damage the
would bring uninspected plants, animals, or meat              agricultural economy. Our past investigations of
products into the United States.

                                                                                                                       1
vandalism at USDA facilities by ecoterrorists have              pace of movements around the globe have contributed
already resulted in a heightened awareness of security          to a new operational environment and a new set of
at these locations.                                             management challenges. To help the Department
                                                                respond to these challenges, and to keep pace with
Other environmental concerns have also placed                   them ourselves, we are undertaking a complete review
demands on OIG’s resources. Current audits of the               of our own activities. We want to see how we can better
Nation’s fire plan are aimed at shoring up weaknesses           use our existing resources through additional training
in the Department’s ability to respond to major forest          for employees, better equip our personnel, and
fires. Although these audits were initially undertaken          determine what specific additional resources we might
within the context of past years’ devastating fires in          need. This would include personnel with specialized
Idaho and New Mexico, our focus will now include the            skills, such as computer scientists and systems
possibility of intentional acts of destruction to our natural   engineers. Limited funding, new statutory mandates,
resources.                                                      and now unanticipated criminal threats have placed
                                                                increasing demands on OIG’s resources. By
Protecting the integrity of USDA programs remains as            reengineering our business practices, we plan to take
critical a responsibility for OIG as does securing the          full advantage of state-of-the-art technologies in our
Department’s infrastructure. Our ongoing investigations         audit and investigative activities, streamline operations,
into food stamp fraud continue to rid the program of            and increase efficiencies.
illegal participants. Operation Talon, an initiative to
identify and arrest fugitive felons who apply for food          Clearly, the events of September 11 have impacted the
stamp benefits, is now in its fourth year and reports over      way USDA does business. These events have also
7,800 arrests. We must also find time to intensify our          enlarged the role that OIG must play in helping the
pursuit of those who traffic in food stamps and those           Department through the days ahead. But we do not
who defraud the program using Electronic Benefits               come to this role unprepared. The work we have done
Transfer, or EBT. Criminal assault on these benefit             in the past, the experience we have gained in protecting
programs costs the Department millions of dollars over          the integrity of Department programs, and the
time and can fuel even broader criminal activity. We            relationships we have made with Federal law
have routinely focused our investigations of benefits           enforcement and, especially, with State and local police
trafficking on the money trail and know that some of the        departments have armed us against the threats the
illegally gained money is finding its way overseas. We          Department now faces. As an alerted citizenry
have made great efforts to halt this fraud through              continues to report suspicious activities, we will help in
aggressive use of money laundering and forfeiture               all ways we can. The equipment we have already
statutes.                                                       provided to State and local law enforcement agencies
                                                                with asset forfeiture funds and the communications links
The September 11 attacks have caused us to                      we have developed have extended the effectiveness of
concentrate more sharply on USDA’s fundamental                  our own reach. We and the rest of the law enforcement
operations within the context of the 21st century. The          community are ready to act as one front against
effects of more efficient means of production, more             domestic and international terror.
rapid communications, free trade, and the freer, faster




2
Executive Summary


This is the 46th Semiannual Report of the Office of          initiatives in place, we have been able to capitalize on
Inspector General (OIG), U.S. Department of Agriculture      our knowledge of and expertise in USDA programs and
(USDA), pursuant to the provisions of the Inspector          the agricultural economy and our relationships with
General Act of 1978 (Public Law 95-452), as amended.         Federal, State, and local law enforcement agencies to
This report covers the period April 1 through                address heightened challenges and issues quickly and
September 30, 2001.                                          effectively.

In accordance with the requirements of the Inspector         Protecting the Food Supply
General Act, this report describes matters relating to the
Department’s programs and operations which occurred          With the outbreak of Foot and Mouth Disease in Europe
during the reporting period. These include significant       and, subsequently, South America, we conducted a
problems, abuses, and deficiencies; significant              special review of the controls and procedures employed
recommendations for corrective action; prior significant     by the Department to prevent the entry into the United
recommendations unimplemented; prosecutorial                 States of the disease via imported meat. We found that
referrals; information or assistance refused; a list of      enhanced controls were needed to reduce the
audit reports; a summary of significant reports; tables on   possibility of such entry. Communications between the
questioned costs and funds to be put to better use;          Animal and Plant Health Inspection Service (APHIS)
previous audit reports unresolved; significant revised       and the Food Safety and Inspection Service (FSIS), the
management decisions; any significant management             two USDA agencies responsible for regulating the entry
decision disagreements; and a review of legislation and      of imported meat, were weak. APHIS needed to
regulations.                                                 improve its accountability over imported products from
                                                             their arrival at U.S. ports of entry through their
Monetary Impact and Results                                  disposition by the respective agencies. APHIS and FSIS
                                                             agreed with the findings and recommendations and are
During this reporting period, we issued 58 audit and         acting on them.
evaluation reports and reached management decisions
on 53. Based on this work, management officials              Three of our investigations resulted in significant
agreed to recover $4 million and to put an additional        criminal penalties against meat processors that
$78.6 million to better use.                                 distributed products contaminated by the deadly
                                                             bacteria Listeria monocytogenes, which had sickened
We also issued 269 reports of investigation during this      and killed people who consumed it. Our rapid
period. Our investigative efforts resulted in                emergency responses immediately halted distribution of
181 indictments, 172 convictions, and approximately          the products.
$28.2 million in recoveries, fines, restitutions, claims
established, cost avoidance, and administrative              Information Technology
penalties.
                                                             One of the more significant dangers USDA, as well as
USDA and the Terrorist Threat                                other public and private entities, faces is cyberterrorism.
                                                             The dependence on information technology (IT) and the
In our special introductory section on USDA and the          Internet has exposed USDA’s billions of dollars in
terrorist threat, we have highlighted what we have been      assets and its critical infrastructure to additional criminal
focusing on since the September 11 and subsequent            and security vulnerabilities. The Department has taken
attacks. These events have given new urgency to              positive action by developing a plan to strengthen
issues of security over the USDA infrastructure and the      USDA information security; however, our audits
agricultural economy. OIG has redirected its resources       continue to identify deficiencies in USDA’s security
both to maintain the integrity of Department programs        posture. Our audits of several agencies found
and help the Department strengthen its defenses              inadequate controls over access to systems and over
against activities that threaten Government facilities and   sensitive information, as well as security vulnerabilities.
agricultural production. We have redoubled our efforts       Our Government Information Security Reform Act
in certain key areas where we were already devoting          review disclosed that the Department is still far from
much time and resources. Because we had established          effectively managing and securing IT resources.



                                                                                                                         3
Criminal investigations have resulted in the conviction of     and operations. Our efforts pursued criminal activity
an employee using USDA IT resources to sexually                committed by USDA employees, directed at USDA
exploit children over the Internet. Numerous program           employees or companies, or committed by others to
participants were convicted for illegally gaining millions     affect USDA programs. Examples include the conviction
of program dollars via electronic commerce systems             of an Agricultural Marketing Service (AMS) produce
such as the Food Stamp Program’s Electronic Benefits           inspector and produce company owners for bribery in a
Transfer system.                                               scheme to cheat produce farmers. We also participated
                                                               in a joint investigative effort to stop a gang of 12 thieves
Financial Management and Accountability                        who were preying on farmers in the Midwest, stealing
                                                               over $5 million in farm equipment, much of which was
Financial crimes and management irregularities remain          collateral for USDA loans.
significant challenges for the Department. For the past
7 years, we have disclaimed an opinion on the                  OIG continues to audit other major departmental
Department’s consolidated financial statements. This           programs and functions, and make recommendations
means the Department does not know whether it                  that will increase efficiency and reduce wasteful and
properly accounted for the money it collected, the cost        fraudulent activities. Examples include: (1) watermelon
of operations, and assets of well over $100 billion. This      crop insurance claims of $1.5 million filed by three
period, the Forest Service (FS) and the Commodity              producers who were not eligible; (2) food service
Credit Corporation (CCC) were unable to complete their         management companies engaged to operate school
financial statements in time for us to audit them by the       lunch and breakfast programs that did not pass on to
legislatively mandated timeframe of March 1. Our               school districts purchase discounts of $237,000 or failed
subsequent audit work of these entities resulted in a          to credit school districts with $2.9 million of USDA-
disclaimer of opinion. Investigative efforts resulted in the   donated commodities; (3) FS’ Northeastern Forest
recovery of millions of dollars lost to contract fraud and     Experiment Station improperly used cooperative
embezzlements.                                                 agreements to sell timber, resulting in an unauthorized
                                                               retention of $2 million and failure to pay West Virginia
Abuse of USDA Programs and Operations                          $342,000; and (4) four management companies
                                                               charged the Rural Rental Housing (RRH) Program with
OIG investigations continue to focus only on the most          excessive and questionable insurance expenses
egregious cases of criminal activity in USDA programs          totaling over $595,000.




4
    Summary of Audit Activities
Reports Issued .................................................................................................................................................         58
  Audits Performed by OIG ....................................................................................                48
  Evaluations Performed by OIG ...........................................................................                      0
  Audits Performed Under the Single Audit Act .....................................................                             5
  Audits Performed by Others ................................................................................                   5

Management Decisions Made
 Number of Reports ..........................................................................................................................................            53
 Number of Recommendations ........................................................................................................................                     383

Total Dollar Impact (Millions) .......................................................................................................................... $83.0
  Questioned/Unsupported Costs .......................................................................................... $4.4a,b,c
  Recommended for Recovery ..............................................................................            $4.0
  Not Recommended for Recovery ........................................................................              $0.5
  Funds To Be Put to Better Use ............................................................................................ $78.6

a These were the amounts the auditees agreed to at the time of management decision.
b The recoveries realized could change as the auditees implement the agreed-upon corrective action plan and seek recovery of amounts recorded
  as debts due the Department.
c Because of rounding, this number does not equal the addition of the two numbers composing it. See Appendix I for exact numbers.



    Summary of Investigative Activities
Reports Issued ...................................................................................................................................................      269
Cases Opened ...................................................................................................................................................        206
Cases Closed .....................................................................................................................................................      415
Cases Referred for Prosecution .........................................................................................................................                161

Impact of Investigations
  Indictments ....................................................................................................................................................      181
  Convictions ....................................................................................................................................................      172a
  Searches ........................................................................................................................................................      78
  Arrests ...........................................................................................................................................................   659b

Total Dollar Impact (Millions) .......................................................................................................................... $28.2
 Recoveries/Collections .......................................................................................................... $ 2.8c
 Restitutions ........................................................................................................................... $18.2d
 Fines ..................................................................................................................................... $ 4.1e
 Claims Established ................................................................................................................ $ 2.0f
 Cost Avoidance ..................................................................................................................... $ 0.9g
 Administrative Penalties ........................................................................................................ $ 0.2h

Administrative Sanctions
  Employees......................................................................................................................................................        33
  Businesses/Persons ......................................................................................................................................             395

a Includes convictions and pretrial diversions. Also, the period of time to obtain court action on an indictment varies widely; therefore,
  the 172 convictions do not necessarily relate to the 181 indictments.
b
  Includes 522 Operation Talon arrests and 137 arrests not related to Operation Talon.
c
  Includes money received by USDA or other Government agencies as a result of OIG investigations.
d
  Restitutions are court-ordered repayments of money lost through a crime or program abuse.
e
  Fines are court-ordered penalties.
f
  Claims established are agency demands for repayment of USDA benefits.
g Consists of loans or benefits not granted as the result of an OIG investigation.
h Includes monetary fines or penalties authorized by law and imposed through an administrative process as a result of OIG findings.




                                                                                                                                                                               5
Protecting the Food Supply


Protecting U.S. agriculture and ensuring safe and            inspection houses in Maryland and New Jersey, as well
wholesome meat and poultry is one of the primary             as APHIS’ three regional offices and the major ports of
challenges facing USDA. One of OIG’s chief missions is       Miami, Florida; Houston, Texas; Long Beach, California;
to ensure the safety of the American food supply, both       Philadelphia, Pennsylvania; and Detroit, Michigan. We
by auditing food safety programs to detect deficiencies      found a number of activities that needed improvement
and recommend improvements and by investigating              and made recommendations to correct the identified
criminal activity involving the intentional contamination    problems. APHIS and FSIS agreed with the findings
of food products; the processing and sale of adulterated     and recommendations and began implementation of
meat, poultry, and egg products; and the substitution,       corrective actions immediately.
adulteration or other misrepresentation of food products
regulated or inspected by USDA. Further, OIG plays           The fundamental problem, we learned, was a failure to
an important role in protecting the U.S. agriculture         communicate between APHIS and FSIS. In order for the
infrastructure from possible harm due to the accidental      process of inspection, reinspection, and clearance (or
or intentional introduction of foreign pests and diseases.   rejection) of imported meat to work efficiently to prevent
Foreign plant and animal pests and diseases can be           embargoed product from entering the United States,
financially devastating to farmers, expensive for Federal    e.g., meat from FMD-restricted countries, and to allow
and State Governments seeking to eradicate them, and         unrestricted product to enter in a timely manner, the two
dangerous, sometimes fatal, to people, animals, and          agencies must communicate in an organized and
crops.                                                       punctual manner. This did not always occur. For
                                                             instance, a shipment of over 32,000 pounds of meat
OIG’s work ranges from detecting criminal smuggling of       products from an FMD-restricted country arrived in the
plants, animals, vegetables, fruits, and meats from          Port of Houston and was released to an FSIS inspection
overseas to investigating reports of illegal activity at     house, but through error was moved to a warehouse in
meat and poultry processing plants to following up on        San Antonio, Texas. FSIS had not been informed to
reports of adulterated products in stores. This mission      expect the product at its inspection house and was
has become even more critical now, as the threat of          notified after the broker discovered the error 9 days
intentional contamination of food for terrorist purposes     after the release. The product was returned to Houston,
has become more real. We also can never ignore the           where over one-sixth of it had to be destroyed because
continuing threats to consumers caused when some             it was produced after the restricted date. The remaining
unscrupulous businesses place profit above public            product had been produced prior to the restricted date
safety, failing to report and destroy food contaminated      and was allowed into commerce.
by dangerous pathogens or even actively adulterating
food to increase their profit.                               We also found that APHIS needed to improve its
                                                             accountability over imported products from their arrival
                                                             at U.S. ports-of-entry through their disposition by the
    AUDIT WORK TO IMPROVE MANAGEMENT
                                                             respective agencies. There was no central automated
    OF PROTECTION OF THE FOOD SUPPLY
                                                             system that controlled imports entering U.S. ports-of-
                                                             entry through their disposition. More important, neither
Enhanced Controls Needed To Control Imported                 APHIS nor FSIS had an adequate system of controls or
Meat                                                         records that could produce such information. APHIS
                                                             had to manually search the records at each port to
As we reported in July of this year, we undertook an         provide a record of inventory of held shipments and
expedited review of APHIS and FSIS functions with            product forwarded to inspection houses which OIG
regard to imported meat. APHIS has the primary               could use to take a physical inventory of product
responsibility for ensuring that animal products do not      associated with selected ports-of-entry. Without the
enter the United States if they are from restricted          underlying controls or system of records, there was little
countries, e.g., those with FMD, or if they are              assurance that our physical inventory represented all of
contaminated by diseases such as African swine fever.        the product.
FSIS reinspects imported meat products after APHIS
officers determine they may enter the country. OIG
looked at the two agencies’ activities at five FSIS



6
We recommended that APHIS and FSIS implement new              $1.2 million. FSIS compliance officers assisted in
procedures to strengthen their communication and              the investigation.
coordination at the field level, and issue instructions
specifically identifying the responsibilities of each         Corporation Fined for Distribution of Adulterated
agency regarding the handling of products from                Meat Products
restricted countries. We also recommended that APHIS
discontinue its policy of allowing mixed shipments of         A Michigan-based corporation pled guilty in Federal
enterable and nonenterable products to enter the              court to the distribution of adulterated food products and
country for sorting, and that the agencies jointly conduct    was fined $50,000. The plant involved was in Arkansas.
an inventory to identify and account for all such             On April 13, 1999, FSIS deemed over 21 million pounds
products that had entered the United States from FMD-         of meat and poultry products produced at this plant unfit
restricted countries and ensure the disposition of any        for human consumption and withdrew the mark of
that still remained. We recommended that APHIS                inspection. Our investigation showed that the
improve its systems to track and account for products         corporation failed to notify FSIS of 16 positive tests for
that are retained on hold at the ports-of-entry, and to       Listeria monocytogenes in 1997 and 1998. The
flag instances where such products have remained for          corporation has since declared bankruptcy and has
an unreasonable amount of time. Both APHIS and FSIS           been sold. Assisting in the investigation were FSIS
agreed with the findings and recommendations and are          compliance officers and the Office of Special
acting on them.                                               Investigations, U.S. Air Force.

OIG is now reviewing FSIS’ reinspection of imported           Florida Corporation Pleads Guilty to Adulteration of
meat and poultry products as they enter the United            Meat Products
States, as well as equivalency determinations of foreign
inspection systems in terms of the Hazard Analysis and        A major food store chain’s meatpacking plant located in
Critical Control Point System and microbial product           Madison, Florida, pled guilty to Federal charges of
testing. A review of APHIS’ inspection activities at          selling meat products contaminated with Listeria
ports-of-entry designed to prevent the introduction of        monocytogenes. An OIG investigation revealed the
foreign plant and animal pests and diseases, which are        corporation failed to acknowledge lab tests that showed
harmful to U.S. agriculture, is currently underway.           a presence of the deadly pathogen. The corporation
                                                              recalled approximately 4.5 million pounds of meat and
                                                              poultry products and has invested over $1 million to
 INVESTIGATIONS TO PURSUE SPECIFIC
                                                              update its plant with new processing equipment. The
 THREATS
                                                              corporation was fined $20,000.

Major Food Processor Guilty of Producing and                  Six Milk Drivers and Dairymen Convicted in Milk
Distributing Adulterated Products                             Adulteration Scam

In June 2001, attorneys for a major food-processing           As previously reported, a series of investigations
corporation entered a plea of guilty in U.S. District Court   dubbed “Operation Got Water” in Louisiana and
to producing and distributing adulterated meat and            Mississippi found that milk truck drivers and dairymen
poultry products. From June to September 1998, one of         added salt and water to raw milk in order to increase the
its processing plants produced and distributed food           weight of the daily milk production, resulting in higher
products that contained the bacterium Listeria                payments to the dairymen. Four drivers and two
monocytogenes. Sentencing included the maximum fine           dairymen have now been convicted and sentenced to
of $200,000 with an agreement to underwrite food              terms that range from 3 years’ probation to 5 months in
safety research projects by funding a $3 million grant to     Federal prison. They have been ordered to make
Michigan State University. The corporation also settled       restitution ranging from $7,500 to $23,000. This matter
a civil lawsuit relating to the 1998 sale of meat products    was worked jointly with the U.S. Attorney’s Office for the
to the U.S. Department of Defense by paying more than         Eastern District of Louisiana and the Food and Drug
$915,800, as well as Government investigative costs,          Administration’s (FDA) Office of Criminal Investigations
resulting in a total civil settlement of more than            (OCI).



                                                                                                                       7
California Firm Agrees to Monetary Penalty

A large fresh fruit company headquartered in California
agreed to pay USDA an administrative penalty of
$180,000 in lieu of having its Perishable Agricultural
Commodities Act license suspended. The firm had
imported six truckloads of grapes into the United States
without obtaining the required USDA inspections.
Counterfeit USDA Certificates of Inspection were then
used to sell the fruit. The company through its own
records found that the inspection certificates were
fraudulent and reported it to USDA, which prompted
OIG’s investigation.




8
Information Technology


One of the more significant dangers USDA faces is an         Our independent evaluations disclosed the following
attack, whether by terrorists seeking to destroy unique      material IT security weaknesses within the Department.
databases or more typical criminals seeking economic         Most of the agencies in our audits (1) had not ensured
gain. The dependence on IT and the Internet has              that their major applications’ security plans contained all
exposed USDA’s billions of dollars in assets and its         the elements required by OMB guidance; (2) had not
critical infrastructure to predators who use a new form of   planned for contingencies or disaster recovery, nor
weapon against the Department’s programs and                 adequately tested those plans; (3) had not ensured that
operations. The Department has numerous information          all their systems had been properly certified and
assets that include market sensitive data on the             authorized, attesting to the adequacy of security
agricultural economy and commodities, signup and             controls and whether those controls are operating
participation data for programs, personal information on     effectively; and (4) had not assessed the existing and
customers and employees, and accounting data. The            potential risks to their IT infrastructure or implemented a
information and related systems face unprecedented           plan to eliminate or mitigate those risks. This report
levels of risk from intentional or accidental disruption,    consolidated the results of several audits conducted in
disclosure, damage, or manipulation. Public confidence       the past fiscal year, and recommendations to address
in the security and confidentiality of the Department’s      the identified vulnerabilities were made in those reports.
information and technology is essential. The
Department has taken positive action by developing a         USDA’s Second Largest Computer Center Needs To
plan to strengthen UDSA information security; however,       Improve Access Controls
our audits continue to identify deficiencies in USDA’s
security posture, while investigations have identified       The National Information Technology Center (NITC)
employee and program participant criminal activity.          needed to take the necessary actions to ensure that
                                                             only authorized users access its systems, periodically
                                                             identify and mitigate existing vulnerabilities in its
 AUDITS TO STRENGTHEN USDA’S IT
                                                             systems, ensure the use of proper controls to its
 SECURITY
                                                             systems from the Internet, and ensure compliance with
                                                             existing Federal security guidelines. NITC did not
GISRA Review Discloses Department Still Far From             ensure that user accounts belonging to its customers
Effectively Managing and Securing IT Resources               were timely removed when those users no longer
                                                             needed access, and it was not tracking access to all
Congress passed the Government Information Security          sensitive and critical datasets on its mainframes. NITC
Reform Act (GISRA) to seek to ensure proper                  also had not been conducting periodic vulnerability
management and security for the information supporting       scans of its systems to ensure that known operating
Federal operations and assets. Our audits have               system vulnerabilities were identified and promptly
identified that USDA, through the work of the Office of      corrected, or that data sent over the Internet was
the Chief Information Officer (OCIO), has a                  protected from unauthorized disclosure through the use
Departmentwide security plan in place and has begun          of encryption. Finally, NITC had not complied with all
improving security over the Department’s IT resources.       the requirements of OMB Circular A-130 by ensuring
Despite its efforts, however, the Department remains         that its security plan included all the needed elements,
noncompliant with several requirements of Office of          such as specification of authority to access systems.
Management and Budget (OMB) Circular A-130 and
Presidential Decision Directive 63. Before the               We recommended that NITC improve its controls over
appointment of a Chief Information Officer,                  access, including ensuring that separated employees
departmental agencies and staff offices separately           are timely removed from its systems, and review its
addressed their respective IT security and infrastructure    security software logging rules to ensure that all access
needs. These isolated approaches taken by individual         to sensitive and critical operating systems datasets was
agencies have resulted in a disparate array of technical     logged. We also recommended that NITC periodically
and physical solutions that do not always ensure that        scan its systems to detect and mitigate known operating
comprehensive Departmentwide security is obtained.




                                                                                                                       9
system vulnerabilities, and improve the security over       make the agency’s systems subject to successful
data to ensure it is transmitted in a controlled, secured   attack. NASS officials stated that they took prompt
manner. Finally, we recommended that NITC ensure            corrective action to mitigate a majority of the
compliance with OMB Circular A-130 by ensuring that         weaknesses identified.
its security plan meets all requirements.
                                                            We recommended that NASS ensure corrective actions
Privacy Considerations Within USDA Agency                   are taken on the vulnerabilities identified, periodically
Internet Sites                                              scan their network for vulnerabilities and track corrective
                                                            actions to ensure remediation, adopt a corporate-level
We evaluated the Department’s Internet activities, as       approach to system administration, and take the
required by the Consolidated Appropriations Act of          necessary actions to ensure compliance with existing
2001, to ensure that individual privacy is sufficiently     Federal IT security guidelines.
protected when visiting USDA agency Web sites. We
found only two instances where agencies had                 NASS officials stated that they have implemented
unknowingly allowed their Web sites to use “cookies”        configuration management and a “best practices”
(automated means of collecting information used to          approach to securing their systems, and initiated a plan
track users without proper disclosure). However, the        to ensure compliance with existing Federal security
Department lacked controls to ensure that existing          guidelines.
privacy policies were being enforced. Further, the
Department had not maintained an accurate list of its       FNS Agrees To Improve Security Over IT Resources
Web sites, which we believe is necessary to further
strengthen the Department’s Internet privacy posture.       FNS computer systems process, analyze, and support
                                                            more than $32 billion in financial and program data
We recommended that the Department require                  annually. Our audit of FNS’ security over IT resources
agencies to provide an inventory of their Web sites and     disclosed serious security vulnerabilities and
report changes to those inventories as they occur,          inadequate controls over access to FNS’ computer
establish a standardized set of software tools for the      network and systems. We identified the following
creation and maintenance of USDA Internet Web sites,        material weaknesses.
assess agency compliance with governmental and
departmental privacy policies relating to Web sites,        • Our scans of FNS networks disclosed 270 significant
require agencies periodically to review and test their        vulnerabilities that could make the agency’s systems
Web sites for compliance with established Internet            subject to successful attack.
privacy policies, and submit annual certifications to
OCIO that these requirements are being met. The             • Agency officials did not effectively ensure that FNS’
Department agreed with our recommendations and                operating systems were free from known security
promptly issued guidance.                                     vulnerabilities. Adequate physical controls were not
                                                              implemented at the facilities reviewed. For example,
Weaknesses Identified in NASS’ Ability To Protect             door lock controls were not always used.
Critical IT Resources
                                                            • User ID and password security and FNS’ process for
We identified weaknesses in the National Agricultural         reviewing continuing system access to financial and
Statistics Service’s (NASS) ability to adequately protect     payment systems were not always effectively
sensitive information from inappropriate disclosure, and      managed to ensure individual accountability.
critical operations from disruption. Significant
information security weaknesses included                    • Weaknesses in access controls existed in two of
noncompliance with existing Federal security                  FNS’ systems. Password features were not always
regulations and inadequately restricted access to             implemented, and the user ID password for one
sensitive data. Our scans of selected NASS networks           system was not encrypted.
identified over 70 significant vulnerabilities that could




10
• FNS had not always updated or tested its                    that the employee met on an Internet chat room and
  contingency plans in a timely manner nor always             with whom he engaged in sexual activity after traveling
  corrected deficiencies identified in its vulnerability      to Louisiana. The employee also contacted minors in
  assessments.                                                other States through the Internet in attempts to entice
                                                              and coerce them into having sexual encounters with
• FNS had not always adhered to OMB requirements              him.
  that risk assessments and system certifications be
  completed at least every 3 years. Five of nine              Trafficking Case Yields Substantial Prison Sentence
  mission-critical systems, which contain critical and        and Restitution
  sensitive information, have not been assessed within
  the past 3 years. Further, certifications have never        The owner of a grocery store in New York City was
  been obtained for three systems, and recertifications       sentenced to 2 years in prison and ordered to pay
  for three other systems were past due.                      $580,660 in restitution to USDA following his guilty plea
                                                              to charges of EBT fraud and trafficking. The
• FNS had not validated that all data for one system          investigation disclosed that the grocery store redeemed
  were encrypted before transmission to NITC, putting         over $1 million in EBT benefits in 1 year. Sentencing is
  sensitive Privacy Act data at risk.                         pending for an employee of the store.

• Incompatible duties existed within the Information          Substantial Restitution Ordered for New Jersey
  Technology Division. The local area network (LAN)           Store Owner
  administrator, who was a “super user” (having
  unlimited access authority) of LAN, was also the            The owner of a New Jersey grocery store was
  deputy security officer responsible for maintaining the     sentenced to 13 months in prison and ordered to pay
  security over LAN.                                          $494,280 in restitution to USDA after she pled guilty to
                                                              charges of EBT fraud and trafficking. The investigation,
We recommended that FNS take immediate action to              worked jointly with the U.S. Secret Service, disclosed
eliminate the high- and medium-risk vulnerabilities           that the grocery store redeemed over $1 million in EBT
found on its systems and implement a number of                benefits during 1 year. Sentencing for three other
specific procedures to correct its security vulnerabilities   employees is pending.
and inadequate controls. FNS agreed with the
recommendations and will implement applicable                 Operation Swipe in Connecticut Results in Large
procedures and controls.                                      Civil Settlement

                                                              Fourteen convenience stores located in Connecticut
 INVESTIGATIONS INVOLVING ABUSE OF IT
                                                              were ordered to pay a total of $335,330 in civil
 RESOURCES
                                                              settlements for their role in EBT trafficking. The civil
                                                              judgment was issued after the various owners were
Employee Sentenced for Sexual Coercion of                     convicted and sentenced under Federal criminal
Children, Possession of Child Pornography                     charges. This case was conducted jointly with the
                                                              Connecticut Chief State Attorney’s Office as part of
In Iowa, a Natural Resources Conservation Service             Operation Swipe in Connecticut.
(NRCS) employee was sentenced to 57 months’
imprisonment, followed by 3 years’ supervised release,        Three Brothers Arrested in WIC and EBT Fraud
after pleading guilty to sexually coercing children over
the Internet and possessing child pornography. The            Three brothers were arrested and are being held
employee used his NRCS Government computer to                 without bond after OIG agents executed search
facilitate the crime and to visit unauthorized Internet       warrants at their store and residence. The store was the
sites during working hours. The employee was fired.           highest Special Supplemental Nutrition Program for
The OIG investigation identified a minor in Louisiana




                                                                                                                         11
Women, Infants, and Children (WIC) redeemer in                             to a 329-count indictment. Bank accounts, cash, and
North Carolina, with more than $542,000 in deposits                        an automobile were seized. The investigation was
in 3 years. The store also deposited in excess of                          conducted jointly with the Internal Revenue Service’s
$176,550 in EBT benefits. Multiple undercover                              (IRS) Criminal Investigation (CI) unit, North Carolina
transactions involving WIC vouchers and EBT cards led                      OIG, and Greenville Police Department.




This store used for WIC trafficking was the highest WIC redeemer in North Carolina. OIG photo.




12
Financial Management and Accountability


Financial crimes and management irregularities remain       Our review of internal controls revealed that
significant challenges for the Department. For the past     (1) inadequate controls over recording obligations
7 years, we have disclaimed an opinion on the               and expenses for firefighting resulted in a $274 million
Department’s consolidated financial statements. This        violation of the Antideficiency Act; (2) although
means the Department does not know whether it               implementation of FFIS improved FS accounting, further
properly accounted for the money it collected, the cost     improvements are needed to ensure that financial
of operations, and assets of well over $100 billion.        accounting data is complete, accurate, and reliable;
Consequently, some USDA managers are forced to              and (3) additional improvements are needed to
make decisions on program operations “in the dark”          adequately safeguard assets.
without solid financial data. The Department’s
problematic issues with the financial management            We made a series of recommendations to strengthen
system will continue until at least 2003, at which point    internal controls and improve compliance with laws and
all USDA agencies should be converted to the                regulations.
Foundation Financial Information System (FFIS).
Effective implementation of FFIS is needed to improve       FY 2000 CCC Financial Statements—Disclaimer of
the Department’s financial management to ensure that        Opinion
managers have reliable data to manage their programs.
This period, the Forest Service (FS) and the Commodity      For the third consecutive year, we have been unable to
Credit Corporation (CCC) were unable to complete their      issue a “clean” opinion on CCC’s financial statements.
financial statements in time for us to audit them by the    Although CCC and OIG continued to work with the
legislatively mandated timeframe of March 1. Our            Department’s task force to correct these reported
subsequent audit work of these entities resulted in a       problems, an extensive amount of work remains. For
disclaimer of opinion. Investigative work continues to      FY 2000, CCC received a disclaimer of opinion because
confirm the vulnerability of USDA programs to general       it was not able to provide sufficient and competent
contract fraud and embezzlement.                            evidential matter to substantiate material financial
                                                            statement line items related to direct and guaranteed
                                                            credits to foreign countries and related activities within
 AUDITS TO STRENGTHEN FINANCIAL
                                                            the timeframes established by the Department. Even
 MANAGEMENT AND ACCOUNTABILITY
                                                            though CCC provided us its financial statements nearly
                                                            2 months late and after processing numerous
Financial Statement Audits                                  adjustments, our audit coverage still disclosed
                                                            significant errors for CCC foreign loan accounting
FY 2000 FS Financial Statements—Disclaimer of               operations.
Opinion
                                                            Despite 6 years of urging by OIG, CCC still needs to
Due to limitations on the scope of our examination, we      substantially overhaul or strengthen its internal control
were unable to express an opinion on the FS financial       and quality assurance aspects over its foreign loan
statements. FS was unable to provide us with its            accounting operations to correct the errors, omissions,
statements and supporting documentation until more          and inconsistencies contained in its financial
than 4 months after the fiscal yearend. Despite this        statements. CCC staff lack the necessary knowledge,
delay, our examination disclosed several material           skills, and abilities to effectively and accurately perform
misstatements in significant line items, such as cash.      accounting functions for the Corporation’s foreign loan
Further, FS’ longstanding lack of accountability over its   operations.
real property assets continued unabated. Audit testing
disclosed error rates that were so high we were unable      Unless actions are taken, achieving the reforms
to make valid projections of misstatements or               required by recent financial management legislation will
unsupported capitalized values. As a result, we were        not be accomplished. Moreover, users of information
unable to obtain reasonable assurance that the real         risk making errant budgetary and operational decisions
property balance of $4.5 billion was fairly stated.         when they rely on questionable information reported or
                                                            taken from the underlying accounting systems. With




                                                                                                                     13
assets of over $14 billion and costs of $30 billion, it is   • OCFO continues to experience significant problems
essential CCC make reforms.                                    with the reconciliation of suspense activity, both in
                                                               timeliness and in properly clearing amounts from the
We recommended that CCC obtain an outside                      suspense accounts.
contractor to assist it in evaluating its financial
accounting and reporting functions; improving the            We made a number of recommendations to address
timeliness and accuracy of its financial information; and    these weaknesses, including that OCFO should
strengthening supervisory/management oversight over          establish a “corporate level” approach to performing risk
financial account reconciliation, accounting entries, and    assessments of its operations following the Treadway
adjustments. We also recommended CCC obtain                  Commission’s “Model Framework” process.
additional outside resources to conduct its foreign loan
accounting operations in the interim.                        Guaranteed Rural Rental Housing Loan Program
                                                             Has Not Met Its Objective
FY 2000 Review of Internal Controls at NFC
                                                             The objective of the Guaranteed Rural Rental Housing
Our review of the internal control structure at the Office   Program (GRRHP) is to increase the supply of decent,
of the Chief Financial Officer’s (OCFO) National             safe, and sanitary housing available to low- and
Finance Center (NFC) for FY 2000 resulted in a               moderate-income residents in rural areas. Guarantee
qualified opinion. We noted that actions taken by OCFO       authority steadily increased from $13 million in FY 1996
were sufficient to reduce the risk associated with           to $100 million in FY 2000. For the first 4 years,
several previously reported weaknesses; however, we          aggregate guarantee authority was $153 million, which
found that some previously identified material               was to be used to finance 106 projects with 4,866 rental
weaknesses persisted. Many of these weaknesses               units.
related to problems with the legacy Central Accounting
System (CAS) and its feeder systems. The weaknesses          GRRHP has not achieved the success that RHS
with the CAS general ledger are being mitigated by the       reported to Congress and OMB in annual budget
implementation of the FFIS for USDA agencies. In FY          justifications and Government Performance and Results
2002, all but two smaller agencies will use FFIS, and        Act of 1993 (GPRA) reports. Each year the Rural
plans address the problems with the feeder systems.          Housing Service (RHS) requested substantial increases
However, until these problems are corrected, material        in GRRHP guarantee authority based on the number of
weaknesses with the OCFO/NFC internal control                rental units for which guarantee authority was obligated,
structure will continue. Other material weaknesses           rather than the actual number of rental units built and
noted during our audit are described below.                  financed. In April 1998, RHS reported to OMB that
                                                             GRRHP had produced 1,183 rental units. In subsequent
• OCFO has not performed adequate evaluations or             appropriation requests to Congress for FY 1999 to
  risk assessments to address the changing financial         FY 2001, RHS stated that GRRHP has great potential
  management environment at OCFO/NFC with the                and had been tremendously successful in its first
  implementation of FFIS.                                    3 years of operation. Further, from FY 1998 to FY 2000,
                                                             RHS reported in its GPRA reports that Rural
• The integrity of the data in FFIS could be at risk due     Development had actually built 6,545 rental units.
  to the need to strengthen reconciliations of data from     However, we found that as of August 8, 2000, GRRHP
  the feeder systems to FFIS.                                had built and financed only 222 (4.6 percent) of the
                                                             4,866 rental units reported for FYs 1996 through 1999.
• OCFO has not yet been able to properly reconcile the       GRRHP has not met its objective.
  Fund Balance with Treasury general ledger accounts
  to those amounts reported by Treasury.                     We recommend that RHS (1) develop procedures to
                                                             accurately report in budget requests and GPRA reports
• OCFO had not adequately limited access granted to          the actual status of loan activity including the number of
  NFC’s users or appropriately segregated                    loans guaranteed and units constructed and (2) work
  incompatible duties in FFIS.                               with the stakeholders to determine if there is a need for




14
GRRHP under its current structure. RHS should also           discrepancies with Treasury, and (3) immediately
perform a comprehensive evaluation of the program to         research and correct the unsupported amounts cited.
determine if it is feasible to improve its marketability,
and develop accurate data of the units actually built and    PCMS Internal Controls Need Further Enhancement
financed, to justify future budget requests. RHS either
agreed with or proposed acceptable alternatives to the       Our review of a statistical sample of credit card and
report’s recommendations.                                    convenience check transactions in the Department’s
                                                             Purchase Card Management System (PCMS) disclosed
RHS Needs To Improve GPRA Reporting                          no material problems with the transactions tested.
                                                             However, while Departmental Administration had
In response to a congressional request, we initiated an      established sufficient internal controls for transactions,
ongoing examination of agencies’ activities pursuant to      we found implementation of these controls by the
GPRA. This period, we began a review of the                  agencies needed strengthening. Of particular concern
implementation of GPRA within FSA, and, as part of an        was the lack of implementation of oversight tools to
audit of the Guaranteed Rural Rental Housing Program,        identify suspicious transactions in PCMS by the
we compiled actual performance data and compared             agencies. We noted evidence whereby employees
this with RHS’ GPRA reporting. As discussed above,           exceeded their procurement authority by splitting
significant variances were identified.                       purchase transactions made to the same vendor into
                                                             multiple transactions.
During this reporting period, we began an ongoing
review of FSA to (1) evaluate the system of controls         We also found that two agencies had used the
over GPRA performance reporting and to assess the            Purchase Card Program to improperly fund and
validity and verifiability of reported performance           establish imprest funds without the Department’s
measurement data and (2) evaluate the linkage of long-       approval. Further, departmental policy and regulations
term (strategic) goals to annual performance goals and       allow the use of purchase card and convenience checks
indicators.                                                  for disaster, indemnity, and other program payments;
                                                             however, we believe this practice exposed the
FSIS Antideficiency Act Violations and Staffing              Department to inherent internal control risk and financial
Deficiencies                                                 risk. We estimate that two agencies made over
                                                             $64.4 million in indemnity and disaster payments
At the request of Congress, OIG reviewed the adequacy        between October 1, 1998, and February 29, 2000. We
of FSIS financial and project management, specifically       further found that a large number of employee spot
to determine the impact of recent inspector shortages        awards and emergency salary advances paid with
and why Antideficiency Act violations occurred over the      convenience checks through the card program were not
last 2 years. We found that meat and poultry inspector       properly accounted for through the Department’s
shortages occurred because FSIS does not have a              personnel/payroll system.
method of estimating staffing needs based upon
meaningful criteria; consequently, we were unable to         Among our recommendations was that the Purchase
determine the actual shortfalls. The Antideficiency Act      Card Program be discontinued as an allowable method
violations occurred because of weaknesses in the             to disburse program benefits to participants unless a
agency’s accounting system, as well as the lack of           comprehensive risk assessment is performed. OCFO
compensating controls at operating levels to preclude or     generally agreed with our recommendations.
detect, in a timely manner, these violations.
                                                             FS Needs To Improve Program, Financial, Legal
We recommended that FSIS develop procedures based            Integrity in Enterprise Program
on applicable criteria to estimate inspector staffing
needs nationally and seek sufficient funding to fill those   The FS enterprise concept is intended to improve
positions. We also recommended that FSIS (1) in              management efficiencies through the use of
consultation with OCFO correct the problems that have        independent, self-sufficient internal business units. The
affected the proper allocation of costs, (2) develop and     FS Pacific Southwest Region developed the Enterprise
implement a process to timely reconcile the                  Program and established it as a new activity within the



                                                                                                                     15
FS Working Capital Fund. The FS Washington office          Navy on a $1.1 million renovation project. The
planned to expand the program nationwide if the            corporation failed to pay subcontractors, resulting in
concept was successful. As of September 30, 2000, 19       construction delays. The president of the corporation
approved enterprise units were generating gross            pled guilty to the charges in July 2000. During this
revenues of over $12 million.                              reporting period, the vice president and corporation
                                                           were found guilty by trial in the Eastern District of
A number of weaknesses in critical areas need to be        Pennsylvania. The president and vice president have
addressed before expanding the program. FS does not        now been sentenced to 12 and 33 months in prison,
have a system or the information to determine if the       respectively. The officers and the corporation were
program is fulfilling its objective of improving the       ordered to pay nearly $2 million in restitution. Other
effectiveness, efficiency, and accountability of FS        agencies that worked jointly on this investigation
programs. Moreover, FS does not have a reliable            included the Naval Criminal Investigative Service, the
accounting system that can provide accurate and timely     Small Business Administration OIG, and the
financial statements to the Enterprise Development         Department of Labor OIG.
Bank and enterprise units, nor does it have guidelines
for limiting losses and terminating enterprises that are   Former Housing Manager Pleads Guilty to
not financially viable. The Enterprise Development Bank    Embezzlement and Repays $64,350
has not maintained sufficient cash reserves to absorb
financial losses resulting from enterprise failures.       The former project manager of a Wisconsin USDA-
According to the Development Bank, 7 of the 19             funded housing project was sentenced to 12 months’
enterprises in the Pacific Southwest Region showed net     imprisonment, 3 years’ supervised release, and 300
losses as of September 30, 2000.                           hours of community service, and ordered to pay
                                                           $64,350 in restitution to the housing complex and
FS generally concurred with OIG’s recommendations          USDA. The former manager pled guilty to one
and has made a commitment not to fully expand the          misdemeanor and two felony counts of theft/
program nationally until it adequately addresses all of    embezzlement for having embezzled approximately
OIG’s concerns and recommendations.                        $64,350 from housing complex bank accounts from
                                                           1990 to 1997. The housing complex received financing
                                                           from Rural Development for 20 housing units for the
 INVESTIGATIVE WORK TO STEM
                                                           elderly.
 FINANCIAL CRIME
                                                           Former East Texas School Superintendent Pleads
Corporate Officers Get Prison Terms for $5.6 Million       Guilty to Stealing
Contract Fraud
                                                           A former school superintendent in Fruitvale, Texas, pled
As previously reported, a Philadelphia corporation, its    guilty in Federal court to stealing from a federally funded
president, and vice president were indicted for contract   program. He embezzled more than $187,000 from the
fraud involving a $4.5 million renovation project at an    school district he supervised, of which over $38,000
Agricultural Research Service (ARS) research station in    came from the National School Lunch Program. The
Pennsylvania. The corporation also defrauded the U.S.      investigation was worked jointly with the Texas
                                                           Education Agency and the Van Zandt County District
                                                           Attorney’s Office.




16
Abuse of USDA Programs and Operations


 PUBLIC CORRUPTION
                                                             Workplace Violence Coordinator Guilty of
                                                             Possessing Dangerous Weapon
Former AMS Inspector Sentenced for Accepting
Bribes                                                       In June 2001, an ARS employee went to the OIG office
                                                             in Maryland to be interviewed regarding aggressive
In St. Louis, Missouri, a former Agricultural Marketing      actions he had taken in the workplace. The employee, a
Service (AMS) produce inspector with nearly 20 years         workplace violence coordinator himself, was on
of service pled guilty to accepting a bribe during the       administrative leave pending an OIG investigation of his
official conduct of his duties. The man was sentenced to     actions. When he entered the USDA facility for the
4 months of monitored home confinement, 3 years’             interview, the employee was found to possess a buck
probation, and a $2,000 fine. For 15 years, the AMS          knife with a 4-inch blade and a pepper spray container.
Inspector, in his official capacity, accepted bribes from    OIG agents arrested him 2 days later on a Federal
persons connected to the produce business in St. Louis       warrant charging him with possessing a dangerous
in exchange for his intentional downgrading of produce.      weapon in a Federal facility. A court hearing was held in
With the guilty plea, the man admitted accepting cash        July, and the employee was released on bail under the
payments and other things of value from persons              condition that he relinquish all weapons in his
associated with several large produce brokerage firms.       possession to OIG. A search of his home revealed
Two other produce company owners and two produce             62 weapons, including assault rifles, riot shotguns, and
buyers subsequently pled guilty to felony charges            semiautomatic handguns. The employee was convicted
related to mail fraud and bribery. Eight other individuals   in Federal court and has been sentenced to 2 years’
who were involved in a peripheral capacity have              probation, directed to participate in a mental health
entered the Federal pretrial diversion program. All have     program, ordered not to enter any USDA facility or
received sentences of probation, home confinement,           possess firearms while under probation, fined $500, and
and/or fines. The investigation continues in concert with    ordered to pay a $25 special assessment fee.
the Defense Criminal Investigative Service, the FBI, and
the U.S. Postal Inspection Service. This case was one
of a number of public corruption investigations over the
past 6 months; they resulted in 11 convictions of current
or former USDA employees and 33 personnel actions.


 WORKPLACE VIOLENCE


NRCS Employee Sentenced for Possessing
Bomb-Making Equipment

A search warrant executed at the residence of an NRCS
employee by Alcohol, Tobacco, and Firearms (ATF)             Weapons relinquished by USDA employee, himself a workplace
special agents revealed 58 pipe bombs, bomb-making           violence coordinator. OIG photo.
material, a firearm silencer, and a landmine. At the
request of the U.S. attorney’s office, OIG was called in
to assist ATF with the investigation. The resulting joint    Men Arrested Following Assault on FS Agent
investigation included extracting data from the
employee’s Government computer and searching for             One man is awaiting sentencing following an OIG
additional explosive devices at the workplace with           investigation into an assault on FS law enforcement
specialized bomb-sniffing dogs. The employee pled            personnel during a drug investigation. After a lengthy
guilty to possessing destructive devices (pipe bombs)        surveillance by FS agents and county law enforcement
and was sentenced to 6 months’ home detention,               personnel of a methamphetamine lab operation in the
3 years’ probation, a $1,500 fine, and a $100 special        Mark Twain National Forest in southern Missouri, three
assessment fee.                                              subjects attempted to elude capture once a law



                                                                                                                          17
enforcement presence was announced. As the main             Centerville, Ohio, Police Department; the Miamisburg,
subject fled, he fired a 9mm pistol at law enforcement      Ohio, Police Department; the Moraine, Ohio, Police
personnel and an FS special agent. The three were           Department; the Dayton, Ohio, Police Department; the
quickly apprehended and arrested. The main subject          National Insurance Crime Bureau; and the FBI.
was charged with manufacturing methamphetamine,             Numerous other law enforcement agencies supported
discharging a firearm during a drug trafficking crime,      the task force.
and assault on a Federal officer. He subsequently pled
guilty to two counts and is scheduled for sentencing in
December 2001.


 FARM PROGRAMS


Three Thieves Sentenced to Long Jail Terms for
Victimizing Farmers; $600,000 in Stolen Property
Recovered

In August 2001, 12 members of an organized group
were arrested in the Dayton, Ohio, area for their
participation in a conspiracy to steal farm equipment
and other items from farmers in Ohio, Kentucky, and
Indiana. Three of the gang members have recently            Some of the $600,000 worth of stolen property recovered around
been sentenced to jail terms of 9 years, 6 years, and       Dayton, Ohio. OIG photo.
2 years. Beginning in July 2000, OIG and other
members of the Ohio Organized Crime Investigations
Commission Task Force 00-3, Dayton, infiltrated the
criminal organization. The investigation found that the
criminal organization was responsible for over $5 million
in farm-related thefts. The task force has recovered over
$600,000 worth of the stolen property.

During undercover conversations, one subject of the
criminal organization boasted that he targeted farms
and rural communities because he knew that there are
fewer law enforcement officers in rural communities and
that farmers rarely secure their property. The subject
further boasted, “A man’s home is his castle, but his
barns are mine.” OIG positively identified 30 farms
participating in FSA programs that this criminal
organization victimized in 12 counties in Ohio, 5           Another piece of equipment to be returned to the farmer from whom it
                                                            was stolen by an organized theft ring. OIG photo.
counties in Indiana, and 1 county in Kentucky. Property
stolen included tractors, automobiles, generators, tools,
weapons, and all-terrain vehicles. Much of the stolen       Louisiana Businessman Sentenced in ‘Check-
property was collateral for farm-owned property or          Kiting’ Scheme
operating loans and/or business and industry loans. It is
anticipated that additional FSA farm victims will be        A Louisiana man who owns several farms, a cotton gin,
identified, with a number of additional subjects to be      and a cotton shipping company was sentenced in
indicted and arrested in the near future.                   Federal court to 41 months in prison and ordered to pay
                                                            restitution of more than $3 million. As previously
The task force consists of agents and officers from OIG;    reported, the businessman “kited” hundreds of checks
the Montgomery County, Ohio, Sheriff’s Office; the          relating to his cotton shipping business between his



18
checking accounts at two Louisiana banks from
November 1998 through August 1999. During 3 days in           Disaster Assistance Programs
August 1999, the businessman deposited checks
totaling more than $5.5 million for which there were          • Unsupported Claim in Texas—For 1998 crop
insufficient funds. After the check-kiting scheme was           insurance losses, producers were generally eligible
discovered, he repacked nearly 1,000 bales of 1998              to receive both crop insurance indemnities through
cotton and falsely identified it as cotton he grew in 1999.     the Risk Management Agency (RMA) and disaster
He received over $216,000 from CCC in commodity                 assistance program payments through FSA. FSA
loans and payments on the repacked cotton. This                 was to refer suspected cases of program abuse to
investigation was worked jointly with the FBI.                  RMA for review and for correction of any
                                                                corresponding crop insurance information. We tested
Five Plead Guilty in $2 Million False Weight                    the effectiveness of this dual program delivery in
Certificate Scheme                                              Texas and concluded that the two agencies
                                                                effectively resolved differences in production. In one
Six subjects were charged in Federal court in a                 instance they did not. Two producers were overpaid
conspiracy to issue false weight certificates in excess of      about $56,000 in indemnities because their claim
$2 million for grain that was never delivered, but instead      was based on unsupported information and improper
used to defraud a grain company. The indictment                 loss adjustment procedures. RMA agreed to recover
charged them with conspiracy, issuance of false grain           the overpayment from the insurance company.
inspection and weight certificates, and filing false
income tax returns. Five of the six subjects have pled        • Uncorrected Data—FSA and RMA program
guilty. One of the subjects was a former NRCS                   managers did not promptly share corrections made to
employee in Arkansas. This investigation was                    records common to the crop insurance and disaster
conducted jointly with the Arkansas State Police;               programs. FSA approved over $19 million in Crop
Phillips County, Arkansas, Sheriff’s Office; and IRS CI.        Disaster Program (CDP) applications for watermelon
                                                                and nonirrigated corn based on indemnities known by
Attempt To Hide Assets Backfires Against Wyoming                RMA to be excessive. Another $1 million in 1999 and
Couple                                                          1998 disaster payments were made based on
                                                                indemnities RMA corrected after the disaster
A Federal court issued a default judgment of more than          program payments were issued. We recommended
$380,900 against a Wyoming couple for making false              FSA and RMA implement interagency procedures to
statements to FSA concerning their financial status in          (1) identify RMA program design flaws that result in
order to influence a debt settlement offer. The couple          excessive indemnities and (2) exchange data when
conducted their farming business under a corporation            reviews identify payment errors.
name to conceal their true assets and income from
FSA.                                                          • Planned Audits of Farm Assistance Programs—
                                                                As a result of our preliminary review of the farm
Individual Convicted of Unauthorized Disposition of             assistance programs authorized under the
Mortgaged Property                                              Agriculture, Rural Development, Food and Drug
                                                                Administration, and Related Agencies Appropriations
A farmer in Greenville, Kentucky, converted to his own          Act of 2001, we will review in depth (1) the Quality
use nearly $248,700 worth of corn and soybeans, which           Loss Program for all crops, as well as apples and
was pledged as collateral to CCC pursuant to a farm             potatoes, (2) CDP in Florida, and (3) county
storage agreement. The farmer pled guilty to one count          committee changes to RMA data.
of unauthorized disposition of mortgaged property and
was sentenced to 5 years’ probation and ordered to pay        Payment Limitation Determinations for Majority
$30,230 in restitution. The remaining funds due USDA          Stockholders Were Not Correct
will be collected through a wage garnishment
mechanism already in place.                                   FSA procedures require a stockholder owning more
                                                              than 50 percent of a corporation (majority stockholder)
                                                              to be combined with the corporation as one “person” for



                                                                                                                    19
payment limitation purposes. Nationwide, we identified       recommended that RMA collect the $1.5 million in
68,425 corporations with majority stockholders for 1998      overpayments.
and 1999 (some duplication, because they are counted
separately each year). We found 24,946 (about                North Texas Crop Adjuster, 3 Producers Plead
36 percent) were not combined in FSA’s automated             Guilty to Crop Insurance Fraud
system, because either the FSA county committees did
not properly combine the corporations with their majority    A former crop insurance adjuster pled guilty to
stockholders or county office employees did not              submitting false claims to RMA for 1999 multiple peril
correctly enter “person” determination data into the         crop insurance loss claims paid to six producers totaling
automated system.                                            nearly $719,000. None planted the crops, but claimed
                                                             losses on their insurance. Three producers have pled
                                                             guilty to this fraud, and criminal action is pending
 CROP INSURANCE
                                                             against the other three. This investigation was
                                                             conducted with the assistance of the RMA Compliance
Producer Inappropriately Allowed To Participate in           Office.
the Crop Insurance Program
                                                             Elevator and Manager Plead Guilty to Misgrading
RMA issues written agreements to producers for               Wheat
obtaining crop insurance on insurable crops when
coverage or rates are unavailable in the county where        A North Dakota elevator manager pled guilty in U.S.
the crop is to be grown. For the 1999 crop year, RMA         District Court to conspiring to defraud RMA by
approved 198 written agreements in Texas covering            misgrading 169,692 bushels of durum wheat so that
counties without an actuarial table for the applicable       producers could qualify for over $500,000 in payments
crop with 58 producers accepting agreements. We              to which they were not entitled under their Crop
reviewed the five largest claims, of eight paid, which       Revenue Coverage. The manager was sentenced to
totaled about $2.1 million, and determined that a father     serve 2 years’ probation. The elevator company has
and son significantly overstated self-certified production   entered into a pretrial diversion agreement whereby it
data as a means to illustrate they had an actuarially        will be audited every 6 months for 18 months and will
sound production history. Based on the misrepresented        pay over $14,000 to USDA as reimbursement for the
production, RMA improperly issued written agreements         cost of the OIG investigation. More charges are pending
to farm potatoes for the 1999 crop year, which in turn       against the numerous producers involved in the
resulted in the father and son collecting improper crop      scheme.
loss indemnities totaling almost $1.5 million. We
recommended that RMA take administrative action to           Two Plead Guilty Following Third Day of Trial
recover the crop insurance indemnities and pursue any
other appropriate civil remedies.                            During a criminal trial in Federal court, a Minnesota
                                                             farmer pled guilty to making false statements and false
Texas Watermelon Claims Were Not Properly                    claims regarding crop insurance. He and his mother
Adjusted                                                     also pled guilty to mail fraud in a related scam to
                                                             deprive lenders of their security interest in crops. The
In August 1998, FCIC approved a watermelon pilot crop        Government proved that the farmer directed the
insurance program for the 1999 through 2001 crop             president of a processing company, which processes
years for 15 counties in 7 States. However, in               one-third of the Nation’s kidney beans, to create false
September 1999, RMA suspended the pilot program for          documents and provide them to an insurance adjuster
the 2000 crop year to make it more market neutral. We        in support of phony crop insurance claims. The farmer
judgmentally reviewed 13 of the 80 policies in Texas         and his mother agreed to pay restitution to RMA of more
that received indemnities, involving 11 producers who        than $100,300. The farmer and his mother also sold
filed 18 claims totaling about $20 million. We               over $200,000 in grain under another family member’s
questioned payments totaling $1.5 million on five claims     name during a 4-year period in order to defraud a
filed by three producers because crop insurance              private lender of its security interest in crops.
eligibility requirements had not been met. We



20
Insurance Agent Indicted for False Insurance                administrative costs claimed by DSHS for fraud
Claims, Brother Guilty of Theft                             investigations, the State attorney general, and indirect
                                                            costs. USDA reimbursed the State for about 50 percent
Two Kentucky brothers, one a tobacco farmer and crop        of these costs, or $2.2 million. FNS agreed to recover
insurance agent and the other a tobacco farmer, were        from DSHS a total of about $2.2 million.
investigated for submitting false statements to RMA in
order to receive indemnity payments for which they          Operation Talon Arrests Continue To Climb
were not entitled. The insurance agent/farmer was
indicted and is awaiting trial on two counts of false       Operation Talon was designed and implemented by
statements resulting in $58,670 of unentitled indemnity     OIG to locate and apprehend fugitives, including violent
payments. The other farmer pled guilty to one count of      offenders, who are current or former food stamp
theft of Government property, involving unlawful receipt    recipients. As of September 30, 2001, Operation Talon
of crop proceeds from RMA, because of incorrectly           had resulted in 7,894 arrests of fugitive felons during
reporting production for his farm. He was sentenced to      joint OIG, Federal, State, and local law enforcement
2 years’ probation, restitution of $15,880, and a           operations throughout the country. On the Federal level,
voluntary 1-year exclusion from the Federal crop            we are working with the U.S. Marshals Service to
insurance program.                                          apprehend Federal fugitives. Serious crimes
                                                            perpetrated by those arrested include homicide-related
Insurance Agent Pays Civil Fine                             offenses (murder, attempted murder, manslaughter),
                                                            sex offenses (child molestation, rape, attempted rape),
The owner of one of the country’s largest crop              kidnapping/abduction, assault, robbery, and drug/
insurance agencies paid $260,000 as part of a civil         narcotics violations.
settlement following charges that he filed, and assisted
others to file, false claims for crop insurance indemnity   Bank Pays $100,000 Settlement for Mishandling
payments. In 1996 and 1997, the insurance agent filed,      Food Stamp Redemptions
and caused others to file, false prevented planting and
replant claims.                                             A major bank in California paid $100,000 in settlement
                                                            of a civil suit filed as a result of the improper handling of
                                                            deposited food stamps and redemption certificates. Our
 NUTRITION PROGRAMS
                                                            investigation determined that bank personnel altered 10
                                                            redemption certificates used by 5 Los Angeles
Enhanced Funding Proper                                     metropolitan area authorized retailers to deposit food
                                                            stamps. Besides the monetary settlement, the bank
We reviewed the quality control (QC) process for the        issued a detailed internal bank procedure outlining the
Food Stamp Program (FSP) in the Food and Nutrition          appropriate manner in which food stamps and their
Service’s (FNS) Southwest Region to determine               attendant documentation are to be handled by bank
whether the region properly granted enhanced funding        officials and employees.
to Texas and Arkansas in FY 1999. The QC error we
identified in Arkansas resulted only in an immaterial       Management Companies Profit at Expense of
increase (.02 percent) in the payment error rate.           Schools’ Food Service Programs
Therefore, we concluded the two States were entitled to
the $32 million in enhanced funding received. We            FNS permits school food authorities (SFA) to contract
recommended Arkansas be informed of the minor               with food service management companies to operate
increase in the payment error rate, which was done.         their nonprofit food service operations under the
                                                            National School Lunch Program (NSLP) and the School
Inaccurate FSP Administrative Costs Claimed by              Breakfast Program (SBP). Our nationwide audit of
State of Washington                                         management company operations found problems in
                                                            Michigan, Illinois, and Missouri. In Michigan, the
The Department of Social Health Services (DSHS)             management company improperly received and
administers FSP in the State of Washington. For FYs         retained benefits through purchase discounts valued at
1998 and 1999, we questioned $4.4 million of the            almost $237,000 during school years 1998 through



                                                                                                                       21
2000. This company is now under OIG investigation. In     CCSP Needs Improvement
Illinois, the management company failed to credit
schools with the value of donated commodities it          We found that FS had not clearly defined the Challenge
received and used for the schools’ NSLP and SBP           Cost Share Program (CCSP) or instituted adequate
operations. For school years 1993 through 1998, this      management controls over it. CCSP makes awards to
company retained over $2.9 million that should have       outside parties for the completion of planned projects.
been passed along to the schools. This management         FS was unable to provide information on 5,210
company is also under OIG investigation. In Missouri,     (92 percent) of the CCSP agreements funded in
one SFA did not maintain a nonprofit school food          FY 1999. Further, FS was unable to adequately account
program, did not properly identify school food program    for the activities of CCSP and was unable to determine
monies, and permitted the company to control the cash     how much of the $35.8 million budgeted for FY 1999
collections from meals and reimbursements, which is       was expended. We recommended that FS develop
prohibited by Federal regulations. The school could not   regulations containing guidelines and controls for
be assured the food service programs benefited from       CCSP, implement procedures to capture expenditures,
the $756,000 it received in annual checks from the        apply existing regulations on cooperative agreements to
company, in excess of their payments to the company,      CCSP agreements, and track CCSP agreements in its
for school years 1998 through 2000.                       existing systems.

Food Wholesaler Settles Qui Tam Lawsuit                   FS Paid $1.1 Million in Excess of Appraised Value
                                                          for a Conservation Easement
A large food service provider agreed to pay $325,000 in
order to settle a qui tam (the private party filing on    The Forest Legacy Program, through the use of
behalf of the Government shares in the recovery)          conservation easements and other mechanisms, is
lawsuit brought in regard to NSLP claims, filed in        intended to protect environmentally important forest
Federal court in New Mexico. The Government               areas that are threatened by conversion to nonforest
subsequently joined the private suit, and the U.S.        uses. The State of Vermont used Federal funds to pay
attorney’s office asked that we conduct a full            $1.1 million in excess of appraised value for a
investigation of this matter. Allegedly, the firm had     conservation easement. We recommended FS recover
defrauded NSLP by submitting inflated claims to school    from Vermont the $1.1 million in excess of the appraisal
districts for operating costs of employee-related         conducted in accordance with Federal appraisal
expenses and insurance costs.                             standards.

                                                          FS Improperly Uses Cooperative Agreements To
 NATURAL RESOURCES AND ENVIRONMENT
                                                          Sell Timber

FS and NRCS Controls for Grants and Agreements            FS’ Northeastern Forest Experiment Station improperly
Need Improvement                                          used cooperative agreements to sell timber, resulting in
                                                          an unauthorized retention of $2 million and failure to
FS and NRCS unnecessarily advanced almost                 pay West Virginia $342,000. FS incorrectly determined
$3 million to the National Fish and Wildlife Foundation   that the McSeeney-McNair Act of May 22, 1922,
(NFWF), a private nonprofit organization established by   allowed the agency to use cooperative agreements and
Congress, and incurred an interest cost of almost         retain the proceeds collected from the sale of harvested
$66,000. FS and NRCS did not use specified                timber. However, the Forest and Rangeland Renewable
administrative controls, such as requiring NFWF to        Resources Act of June 30, 1978, repealed this Act. FS
submit forms that report award advances. Contrary to      may have violated laws prohibiting the augmentation of
regulations, NRCS advanced almost $3 million in 2000      appropriations by retaining approximately $2 million of
before needed by the recipient. The agencies also did     timber proceeds during the period FY 1988 to FY 1999.
not ensure that $279,000 in interest earned by NFWF
on fund advances from one NRCS and three FS               We recommended the FS experiment station award and
agreements would be used for program purposes.            administer timber sales for the station through the
                                                          Monongahela National Forest, and return to the



22
Treasury $2 million for timber sale proceeds that had
been retained by the station for salaries and expenses.

FS Continues To Improve Controls Over Land
Exchanges

As reported previously, OIG has taken a proactive role
in monitoring FS’ efforts to improve controls over its
land exchange activities in response to congressional
and Secretarial concerns. FS has also taken an active
role in implementing nationwide controls to correct
deficiencies in its land exchange activities. However,
some problems persist. During this period, OIG
completed a review of 10 land transactions at the
Siuslaw National Forest (Oregon) in Region 6. The             Sandy cove on the Zephyr Cove property. Previously, a third party
                                                              had discouraged public access to this site. Recent FS actions have
review concluded that the land staffs for the forest and      returned this property to the public domain. OIG photo.
region did not effectively analyze the feasibility of a
proposed $1.6 million land exchange. Land staff
personnel were not familiar with the objectives of the        On June 15, 2001, FS announced that it had bought
Forest Plan. In other areas, FS has made significant          out the third party and regained full control of the
progress. OIG observed the effectiveness of the FS            property. FS plans to tear down the fences and unlock
National Landownership Adjustment Team reviews in             the gates to ensure full and complete public access.
Regions 1 and 3, and participated in regional lands           FS also plans to involve the public in discussions of
training workshops held by the FS Washington Office to        the future use of the property’s structures.
discuss the newly established controls.
                                                               RURAL DEVELOPMENT
Mishandled Exchange Previously Reported by OIG
Is Resolved
                                                              RRH Insurance Expenses Were Excessive
As reported previously, during one land exchange at
Lake Tahoe, FS failed to obtain clear title to a              Four of five management companies we reviewed in
$38 million property at Zephyr Cove, on the Nevada            Mississippi had charged the Rural Rental Housing
side of the lake. As a result, a third party fenced off the   (RRH) projects they managed excessive and
property, restricted public access to it, and planned to      questionable costs totaling over $595,000 for
develop an upscale bed and breakfast lodging for its          insurance. In some of these cases, the management
private clients with continuing restriction for the general   agents had close relationships with the insurance
public during most of the summer months. OIG                  vendors and provided them excessive policy fees that
recommended that FS take action to assume full                were inconsistent with the management agents’
ownership control of the property from the third party to     fiduciary responsibility to limit the expenses of the
ensure the public had unfettered access to it and could       projects to what was actual, reasonable, and
enjoy its unique recreational setting.                        necessary. In other cases, management agents
                                                              exercised poor internal controls over project funds.
                                                              The Mississippi Rural Development State office policy
                                                              that the management fee include administrative costs,
                                                              such as workers’ compensation, was inconsistently
                                                              applied by servicing officials and circumvented by
                                                              three management companies.




                                                                                                                                   23
Because of the significant dollar value and the              Misuse and Mismanagement of Grant Funds by
erroneous reporting, we referred one management              WECC
company for investigation. RHS agreed to the findings
and recommendations. RHS should ensure that                  The Williamsburg Enterprise Community Commission,
unallowable expenses are recovered and internal              Inc. (WECC), is the lead entity for the Williamsburg
controls are strengthened to address the reported            Enterprise Community, consisting of six census tracts in
deficiencies.                                                Williamsburg County and one in Florence County, South
                                                             Carolina. WECC was part of phase I of the
Virginia Offices Did Not Perform Required                    Empowerment Zone/Enterprise Community (EZ/EC)
Management Control Procedures                                program, which at that time was primarily funded
                                                             through the U.S. Department of Health and Human
The Virginia Rural Development State office and its          Services’ block grants, with program monitoring
area offices did not complete required management            provided by Rural Development. In response to a
control reviews over RRH borrower operations. Our            request for assistance from the Rural Development
audit found that such management reviews were                State office, we found that WECC expended almost
needed, as management companies were not properly            $222,000 on administrative expenses, although the
handling tenant income certifications. Further, the State    funds were intended for specific program projects. A
office did not conduct required State internal reviews for   former WECC official in written requests for block grants
four of its five area offices. State officials stated that   funds incorrectly stated that the funds would be used to
budgetary constraints prevented the required level of        implement program projects.
reviews being performed. State officials were not aware
that two area offices did not perform the required           WECC officials used almost $14,000 in block grants for
supervisory visits at each RRH project. Rural                unallowable expenses, such as entertainment, gifts, and
Development has agreed to take actions to correct the        unauthorized travel, and either lost or misfiled about
deficiencies noted.                                          $169,000 in financial documents that secured loans and
                                                             supported expenditures. WECC did not adequately
Montana Bank Returns Over $3.3 Million in Loan               administer its grant programs for housing rehabilitation
Guarantees                                                   and repair, as well as community projects, and its loan
                                                             program for business startups.
Following an OIG investigation, a Montana bank
returned three loan note guarantees to the Rural             We recommended that Rural Development work with
Business-Cooperative Service (RBS) that resulted in a        South Carolina to determine a resolution to the
direct savings to the Government of nearly $2.7 million.     misdirected funds and recover all improper costs.
Our investigation showed that RBS issued the loan note       Further, Rural Development should require WECC to
guarantees to the bank for Business and Industry loans       enhance its management controls by updating its
that were made to a local business. However, at the          monitoring of the status of program performance,
loan closing, the bank failed to inform RBS that the local   procedures for securing financial records, and
business had lost over half of its customer base and         expenditure of Federal funds. We have reached
had a large product recall before issuance of the            agreement on all recommendations in the report.
guarantees. Less than 2 weeks after the guarantees
were issued, the bank sent the loans to its special
collections division, and the company was no longer in
business. According to RBS employees, the loans
would not have been guaranteed if they had been
aware of the true financial situation of the business.




24
Statistical Data


 AUDITS WITHOUT MANAGEMENT DECISION
The following audits did not have management decisions made within the 6-month limit imposed by Congress.
Narratives for new entries follow this table. An asterisk (*) indicates an audit is pending judicial, legal, or investigative
proceedings that must be completed before the agency can act to complete management decisions.


 New Since Last Reporting Period


                                                                                                               Amount With
                                                                                        Total Value              No Mgmt.
                                                                                        at Issuance              Decision
Agency              Date Issued                         Title of Report                 (in dollars)            (in dollars)

FNS                    03/14/01                     1. CACFP Initiative -                    13,163                  9,567
                                                       FY 2000 (27601-8-Te)

FSA                    10/03/00                     2. Jackson County, AR,               8,562,338                  33,667
                                                       FSA Office Operations
                                                       (03006-18-Te)

Multiagency            01/02/01                     3. Review of Controls Over                     0                      0
                                                       Selected USDA Administrative
                                                       Systems and Related Payments -
                                                       Phase II (50099-19-FM)

                       02/26/01                     4. Audit of the FY 2000                        0                      0
                                                       Consolidated Financial
                                                       Statements (50401-39-FM)

OCIO                   03/30/01                     5. Security Over USDA IT                       0                      0
                                                       Resources Needs
                                                       Improvement (50099-27-FM)

RBS                    03/28/01                     6 Northeast LA Delta Community 228,390                          15,732
                                                      Dev. Corp. Rural Enterprise
                                                      Community Loans and Grants,
                                                      Madison Parish, LA (34099-4-Te)

RHS                    12/18/00                     7. RRH Program Insurance               924,751                 924,751
                                                       Expenses, MS (04801-6-KC)

RMA                    02/28/01                     8. FY 2000 FCIC Financial                      0                      0
                                                       Statements (05401-1-Hq)

                       03/12/01                     9. RMA/FCIC FY 2000                            0                      0
                                                       Financial Statements
                                                       Report on Management Issues
                                                       (05401-2-Hq)



                                                                                                                              25
                                                                                                         Amount With
                                                                                    Total Value            No Mgmt.
                                                                                    at Issuance            Decision
Agency             Date Issued                       Title of Report                (in dollars)          (in dollars)

                      03/14/01                   10. Crop Insurance for              2,254,014            2,254,014
                                                     Specialty Crops
                                                     (05601-4-At)


 Previously Reported but Not Yet Resolved


These audits are still pending agency action or are under judicial, legal, or investigative proceedings. Details on the
recommendations where management decisions had not been reached have been reported in previous semiannual
reports to Congress. Agencies have been informed of actions that must be taken to reach management decision, but,
for various reasons, the actions have not been completed. The appropriate Under and Assistant Secretaries have
been notified of those audits without management decisions.

ARS                   02/08/99                   11. Audit of J.A. Jones               160,233              160,233
                                                     Management Services,
                                                     CYs 1994 and 1995
                                                     (02017-4-AT)

CCC                   07/13/00                   12. Audit of CCC              529,150,596                         0
                                                     Financial Statements
                                                     for FY 1999 (06401-11-FM)

CR                    09/30/98                   13. Evaluation of CR Efforts                 0                    0
                                                     To Reduce Complaints
                                                     Backlog (60801-1-Hq)

                      03/24/99                   14. Evaluation of CR Management              0                    0
                                                     of Settlement Agreements
                                                     (60801-2-Hq)

                      03/10/00                   15. Office of CR Management of               0                    0
                                                     Employment Complaints
                                                     (60801-3-Hq)

                      03/10/00                   16. Status of Implementation of              0                    0
                                                     Recommendations Made in
                                                     Prior Evaluations of Program
                                                     Complaints (60801-4-Hq)

CSREES                03/27/97                   17. Use of 4-H Program Funds -          5,633                     0
                                                     University of Illinois
                                                     (13011-1-Ch)

                      03/31/98                   18. National Research Initiative 32,757,862             32,757,862
                                                     Competitive Grants Program
                                                     (13601-1-At)



26
                                                                          Amount With
                                                           Total Value      No Mgmt.
                                                           at Issuance      Decision
Agency   Date Issued       Title of Report                 (in dollars)    (in dollars)

FNS        03/22/00    19. CACFP – National Initiative    319,279                  0
                           To Identify Problem Sponsors -
                           Wildwood (27010-3-KC)

FS         03/31/97    20. Research Cooperative and     468,547             468,547
                           Cost Reimbursable Agreements
                           (08601-18-SF)

           09/24/98    21. Assistance Agreements            7,098,026       200,795
                           to Nonprofit Organizations
                           (08801-2-Te)

FSA        09/30/93    22. Disaster Program,                5,273,795      1,482,759
                           Nonprogram Crops, Mitchell
                           County, GA (03097-2-At)

           09/19/95    23. Management of the               75,175,410       909,437
                           Dade County, FL, FSA
                           Office (03006-1-At)

           09/28/95    24. Disaster Assistance              1,805,828      1,672,929
                           Payments, Lauderdale, TN
                           (03006-4-At)

           01/02/96    25. 1993 Crop Disaster               2,469,829      2,393,241
                           Payments Brooks/
                           Jim Hogg, TX (03006-1-Te)

           05/02/96    26. Disaster Assistance              2,177,640      2,145,533
                           Program - 1994, Thomas
                           County, GA (03006-13-At)*

           09/30/96    27. 1994 Disaster Assistance         2,666,383      1,690,606
                           Program, ME (03601-1-Hy)

           09/30/98    28. Wool and Mohair Payment          2,432,112      2,432,112
                           Limitation, Val Verde
                           County, TX (03099-20-Te)

           03/30/99    29. Payment Limitation - Mitchell      881,924       881,924
                           County, GA (03006-20-At)

           08/22/00    30. LaFlore County FSA                 228,764       228,764
                           Office Disaster Programs
                           (03006-20-Te)*




                                                                                       27
                                                                            Amount With
                                                             Total Value      No Mgmt.
                                                             at Issuance      Decision
Agency        Date Issued       Title of Report              (in dollars)    (in dollars)

FSIS            06/21/00    31. Implementation of the Hazard           0             0
                                Analysis and Critical Control
                                Point System (24001-3-At)

                06/21/00    32. Imported Meat and Poultry              0             0
                                Inspection Process (24099-3-Hy)

Multiagency     09/30/98    33. CSREES Managing Facilities 3,824,211         2,651,292
                                Construction Grants
                                (50601-5-At)

                03/31/99    34. Private Voluntary           18,629,558      18,501,064
                                Organization Accountability
                                (50801-6-At)

                09/29/99    35. Effective Implementation of            0             0
                                FFIS Will Reduce USDA’s
                                Many Financial Management
                                System Problems (50801-07-FM)

                09/28/00    36. Crop Loss Disaster           10,728,872      1,660,630
                                Assistance Program
                                (50801-3-KC)

NRCS            03/31/00    37. NRCS Contracting,            784,562          473,368
                                Procurement, and Disbursement
                                Activities (10601-1-Te)*

RBS             10/01/99    38. Business and Industry Loan –    595,511       595,511
                                Indiana Farms (34099-3-Ch)

                07/11/00    39. Rural Business Enterprise    1,620,256       1,620,256
                                Grant-Vivero Caimito Project
                                (34004-4-Hy)

RHS             08/10/98    40. Self-Help Housing Program –            0             0
                                Grizzly Hollow Project, Galt,
                                CA (04801-2-SF)*

                01/08/99    41. RRH Program – Dujardin          195,694       195,694
                                Property Management, Inc.,
                                Everett, WA (04801-5-SF)*

                03/25/99    42. Guaranteed Rural Housing 139,220,122          215,030
                                Loan Program (04601-2-At)




28
                                                                             Amount With
                                                              Total Value      No Mgmt.
                                                              at Issuance      Decision
Agency        Date Issued      Title of Report                (in dollars)    (in dollars)

                03/31/99    43. RRH – Nationwide Initiative   233,958          148,442
                                in NE – Bosley Management,
                                Inc., Sheridan, WY (04801-3-KC)*

                04/20/99    44. RRH Program – Owner/             346,685       346,685
                                Manager, Olympia, WA
                                (04801-6-SF)*

                05/25/00    45. RRH Nationwide Initiative      4,922,879       483,288
                                in MO, St. Louis, MO
                                (04801-2-KC)

RMA             09/30/97    46. Crop Insurance on Fresh       15,082,744              0
                                Market Tomatoes
                                (05099-1-At)

                12/16/98    47. Crop Insurance on              3,963,468      3,963,468
                                Nurseries (05099-2-At)*

                03/30/00    48. FY 1999 FCIC Financial                  0             0
                                Statements (05401-8-FM)

                03/30/00    49. Audit of RMA/FCIC Financial             0             0
                                Statements for FY 1999
                                Report on Management
                                Issues (05401-8-FM)

Rural           02/01/99    50. Audit of the FY 1998        9,529,862,000             0
Development                     Rural Development
                                Financial Statements
                                (50401-28-FM)




                                                                                          29
 Audits Without Management Decision - Narrative for New Entries




1. CACFP Initiative – FY 2000, Issued March 14,           3. Review of Controls Over Selected USDA
   2001                                                      Administrative Systems and Related
                                                             Payments – Phase II, Issued January 2, 2001
We found that the sponsor was “seriously deficient” in
its administration of the Child and Adult Care Food       To reach management decision on one
Program (CACFP), and questioned excess meal               recommendation, OCFO needs to strengthen the
reimbursements for January 2000 of $13,163. The State     development and review of internal controls or provide
agency concurred that the sponsor was seriously           alternative methods to address the weaknesses noted.
deficient and removed the sponsor from the program;
payment of $3,596 of the questioned amount was offset     4. Audit of the FY 2000 Consolidated Financial
by the sponsor. We are working with the State agency         Statements, Issued February 26, 2001
to recover the $9,567 balance.
                                                          Management decision has not been reached on four
2. Jackson County, Arkansas, FSA Office                   recommendations. We need to review the detailed time-
   Operations, Issued October 3, 2000                     phased plan (1) to be developed by June 30, 2002, for
                                                          implementing the Corporate Administrative System
Our joint review with FSA disclosed the FSA county        strategy, (2) for correcting the problems with the OCFO/
committee and office staff allowed producers, generally   NFC suspense account balances, and (3) for the
those with ties to one large producer, to use farm        Department to establish processes and systems to meet
reconstitutions and improper “planted and considered      Governmentwide cost-accounting requirements,
planted” credit to build rice crop acreage bases (CAB).   whether single or multiple systems are used. Finally, we
We recommended recovery or adjustment of                  need an estimated date for obtaining approval to
$8,562,338 in deficiency, disaster, and production        conduct the market survey on potential replacements of
flexibility contract payments and prompt payment          the Property System and to review the plan for its
interest for the 1992 through 2002 program years.         replacement.
During the audit, FSA corrected the improper CAB and
yield adjustments for 1998 and future years to preclude   5. Security Over USDA IT Resources Needs
about $5 million in overpayments for 1998-2002.              Improvement, Issued March 30, 2001
However, because of the apparent involvement of
county office personnel in making improper payments       For three recommendations, OCIO needs to advise us
and because the cost of recovery would likely exceed      on how it intends to require that agencies prepare and
any recovered amounts, FSA decided collection of prior    test their contingency plans and make necessary
years’ (1992-1997) overpayments would not be pursued      adjustments to plans based on the test results. We also
unless criminal activity was found. FSA took              need timeframes for developing and implementing a
administrative action against several county office       policy that requires agencies to implement firewalls
personnel. To reach management decision, FSA needs        between their networks and Internet access points.
to review program and payment eligibility for one
producer and any related entities.




30
6. Audit of Northeast Louisiana Community                  8. FY 2000 FCIC Financial Statements, Issued
   Development Corporation, lssued March 28,                  February 28, 2001
   2001
                                                           We have not achieved management decision on a
The audit found mismanagement of EC benchmarks,            recommendation that noted RMA did not have adequate
housing program violations, questionable use of EC         controls over the insurance companies’ claims
earmarked loan funds, and potential conflict of interest   adjudication process. OIG needs RMA’s plans to
involving a corporate entity. We have reached              strengthen its controls over insurance companies’ claim
management decision on 12 of 13 recommendations.           processing.

7. RRH Program Insurance Expenses, MS, Issued              9. RMA/FCIC FY 2000 Financial Statements Report
   December 18, 2000                                          on Management Issues, Issued March 12, 2001

The review found improper, excessive, and unapproved       Seven recommendations remain without management
insurance expenses totaling $924,751 charged to RRH        decision, for which we need clarification and details on
projects by two management companies. We have              several IT issues and RMA’s reporting processes.
reached management decision on two of the nine
recommendations. For two others, we need more detail       10. Crop Insurance for Specialty Crops, Issued
as to how RHS will improve its internal controls to            March 14, 2001
effectively use the Multifamily Housing Information
System database to ensure that insurance expenses          The audit disclosed weaknesses in RMA’s and the
are accurate, reasonable, and necessary. For the           insurance companies’ internal controls which
remaining five, the agency needs to bill the               contributed to improper and incorrect sales and loss
management companies.                                      adjuster activities for specialty crops. As a result,
                                                           indemnities totaling $1.1 million were incorrect, and an
                                                           unsupported $1.1 million was paid to two producers.
                                                           RMA has not responded to the report and its eight
                                                           recommendations.




                                                                                                                  31
 Indictments and Convictions

Between April 1 and September 30, 2001, OIG                  Indictments and Convictions
completed 269 investigations. We referred 161 cases to       April 1 - September 30, 2001
Federal, State, and local prosecutors for their decision.

During the reporting period, our investigations led to       Agency Indictments Convictions*
181 indictments and 172 convictions. The period of time
to obtain court action on an indictment varies widely;       AMS                         1                      12
therefore, the 172 convictions do not necessarily relate     APHIS                       2                       7
to the 181 indictments. Fines, recoveries/collections,       ARS                         1                       3
restitutions, claims established, cost avoidance, and        CSREES                      1                       1
administrative penalties resulting from our investigations   FAS                         0                       1
totaled about $28.2 million.                                 FNS                       118                      98
                                                             FS                          2                       6
The following is a breakdown, by agency, of indictments      FSA                        28                      20
and convictions for the reporting period.                    FSIS                        6                       8
                                                             GIPSA                       6                       1
                                                             NRCS                        0                       3
                                                             RHS                         9                       8
                                                             RMA                         7                       4
                                                                                       ___                     ___
                                                             Totals                    181                     172

                                                             *
                                                                 This category includes pretrial diversions.




32
  Office of Inspector General Hotline

 The OIG Hotline serves as a national receiving point for
 reports from both employees and the general public of
 suspected incidents of fraud, waste, mismanagement,
 and abuse in USDA programs and operations. During
 this reporting period, the OIG Hotline received
 1,026 complaints, which included allegations of
 participant fraud, employee misconduct, and
 mismanagement, as well as opinions about USDA
 programs. Figure 1 displays the volume and type of the
 complaints we received, and figure 2 displays the
 disposition of those complaints.



 Figure 1                                                   Figure 2

 Hotline Complaints                                         Disposition of Complaints
 April 1 to September 30, 2001                              April 1 to September 30, 2001
 (Total = 1,026)
                                                                                    Referred to
                                                 Bribery        Referred to       USDA Agencies
                                                    7         FNS for Tracking     for Response     Referred to
                       Participant                                  223                 470        State Agency
                         Fraud                                                                          63
                          595




    Waste/
                                               Health/
Mismanagement
                                   Opinion/    Safety         Referred to
     88       Employee           Information     29         USDA or Other                             Referred to
            Misconduct                96                     Agencies for Filed Without Referred to Other Law
                211
                                                             Information-    Referral-  OIG Audit or Enforcement
                                                            No Response Insufficient Investigations Agencies
                                                               Needed      Information for Review         3
                                                                 157            51          59




                                                                                                              33
 Freedom of Information Act (FOIA) and Privacy Act (PA) Requests for the Period April 1 to
 September30, 2001


Number of FOIA/PA Requests Received                 233

Number of FOIA/PA Requests Processed:               212

     Number of Requests Granted in Full             110
     Number of Requests Granted in Part              35
     Number of Requests Not Granted                  46

Reasons for Denial:

     No Records Available           22
     Requests Denied in Full        14
     Referrals to Other Agencies    16

Requests for OIG Reports From Congress
and Other Government Agencies

     Received                      117
     Processed                     113

Appeals Processed                                     3

     Appeals Completely Upheld       3
     Appeals Partially Reversed      0
     Appeals Completely Reversed     0

Number of OIG Reports/Documents                     108
Released in Response to Requests

NOTE: A request may involve more than one report.
During this 6-month period, 41 audit reports were
published on the Internet at the OIG Web site:
www.usda.gov/oig.




34
Appendix I


                                      INVENTORY OF AUDIT REPORTS ISSUED
                                       WITH QUESTIONED COSTS AND LOANS


                                                                             DOLLAR VALUES

                                                              QUESTIONED             UNSUPPORTEDa
                                                  NUMBER    COSTS AND LOANS         COSTS AND LOANS

A. FOR WHICH NO MANAGEMENT                            53     $2,456,243,124           $43,023,943
   DECISION HAD BEEN MADE
   BY APRIL 1, 2001


B. WHICH WERE ISSUED DURING                           24       $27,701,733             $7,805,903
   THIS REPORTING PERIOD

TOTALS                                                77     $2,483,944,857           $50,829,846

C. FOR WHICH A MANAGEMENT                             22
   DECISION WAS MADE DURING
   THIS REPORTING PERIOD

      (1) DOLLAR VALUE OF
          DISALLOWED COSTS

         RECOMMENDED FOR RECOVERY                               $3,974,841              $377,480

         NOT RECOMMENDED FOR RECOVERY                             $453,412

      (2) DOLLAR VALUE OF                                    $2,267,156,268
          COSTS NOT DISALLOWED

D. FOR WHICH NO MANAGEMENT                            55      $213,449,337            $50,509,289
   DECISION HAS BEEN MADE BY
   THE END OF THIS REPORTING
   PERIOD

      REPORTS FOR WHICH NO                            33      $186,034,717            $42,703,386
      MANAGEMENT DECISION WAS
      MADE WITHIN 6 MONTHS
      OF ISSUANCE

a
    Unsupported values are included in questioned values.




                                                                                                      35
Appendix II


                             INVENTORY OF AUDIT REPORTS ISSUED
                    WITH RECOMMENDATIONS THAT FUNDS BE PUT TO BETTER USE

                                       NUMBER      DOLLAR VALUE

A. FOR WHICH NO MANAGEMENT               25        $1,713,260,644
   DECISION HAD BEEN MADE
   BY APRIL 1, 2001

B. WHICH WERE ISSUED DURING               3            $5,749,444
   THE REPORTING PERIOD

     TOTALS                              28        $1,719,010,088

C. FOR WHICH A MANAGEMENT                14
   DECISION WAS MADE DURING
   THE REPORTING PERIOD

     (1) DOLLAR VALUE OF                              $78,552,639
     DISALLOWED COSTS

     (2) DOLLAR VALUE OF                           $1,479,260,826
     COSTS NOT DISALLOWED

D. FOR WHICH NO MANAGEMENT               14          $161,239,622
   DECISION HAS BEEN MADE BY
   THE END OF THE REPORTING
   PERIOD

     REPORTS FOR WHICH NO                13          $161,060,181
     MANAGEMENT DECISION WAS
     MADE WITHIN 6 MONTHS
     OF ISSUANCE




36
Appendix III


                                  SUMMARY OF AUDIT REPORTS RELEASED
                                 BETWEEN APRIL 1 AND SEPTEMBER 30, 2001

DURING THE 6-MONTH PERIOD BETWEEN APRIL 1 AND SEPTEMBER 30, 2001, THE OFFICE OF INSPECTOR
GENERAL ISSUED 58 AUDIT REPORTS, INCLUDING 5 PERFORMED BY OTHERS.

THE FOLLOWING IS A SUMMARY OF THOSE AUDITS BY AGENCY:

                                                           QUESTIONED    UNSUPPORTEDa    FUNDS BE
                                                 AUDITS      COSTS          COSTS         PUT TO
AGENCY                                          RELEASED   AND LOANS      AND LOANS     BETTER USE

AGRICULTURAL RESEARCH SERVICE            1
FARM SERVICE AGENCY                      5                  $1,235,927
RURAL HOUSING SERVICE                    6                   $841,621        $61,848
RISK MANAGEMENT AGENCY                   4                  $3,096,983
COMMODITY CREDIT CORPORATION             1
FOREST SERVICE                           6                  $3,146,566     $1,100,000   $2,600,000
RURAL UTILITIES SERVICE                  1
NATURAL RESOURCES CONSERVATION
      SERVICE                            2                                                $179,441
OFFICE OF THE CHIEF FINANCIAL OFFICER    1
FOOD SAFETY AND INSPECTION SERVICE       1
NATIONAL AGRICULTURAL STATISTICS SERVICE 1
FOOD AND NUTRITION SERVICE              12                  $9,318,151      $756,751
RURAL BUSINESS-COOPERATIVE SERVICE       4                  $8,768,316     $4,715,965
MULTIAGENCY                             11                  $1,294,169     $1,171,339   $2,970,003
RURAL DEVELOPMENT                        1
CHIEF INFORMATION OFFICER                1

TOTALS                                              58     $27,701,733     $7,805,903   $5,749,444

TOTAL COMPLETED:
  SINGLE AGENCY AUDIT                               47
  MULTIAGENCY AUDIT                                 11
  SINGLE AGENCY EVALUATION                           0
  MULTIAGENCY EVALUATION                             0

TOTAL RELEASED NATIONWIDE                           58

TOTAL COMPLETED UNDER CONTRACTb                      5

TOTAL SINGLE AUDIT ISSUEDc                           5

a
  Unsupported values are included in questioned values
b
  Indicates audits performed by others
c
 Indicates audits completed as Single Audit




                                                                                                     37
                             AUDIT REPORTS RELEASED AND ASSOCIATED MONETARY VALUES
                                      BETWEEN APRIL 1 AND SEPTEMBER 30, 2001

                                                                     QUESTIONED    UNSUPPORTED    FUNDS BE
AUDIT NUMBER                                                           COSTS          COSTS        PUT TO
RELEASE DATE        TITLE                                            AND LOANS      AND LOANS    BETTER USE

AGENCY - AGRICULTURAL RESEARCH SERVICE

 02-017-0017-HY BIONETICS CROP INCURRED COST AUDITS FOR
 2001/04/18     FISCAL YEARS 1997 AND 1998

        TOTAL: AGRICULTURAL RESEARCH SERVICE                    1

AGENCY - FARM SERVICE AGENCY

 03-006-0007-SF   DISASTER PAYMENTS TO PRUNE PRODUCERS IN                  $521
 2001/07/26       CALIFORNIA - PRODUCER B
 03-006-0009-SF   DISASTER PAYMENTS TO PRUNE PRODUCERS IN                 $1,513
 2001/07/26       CALIFORNIA - PRODUCER E
 03-099-0027-TE   FARM SERVICE AGENCY PAYMENT LIMITATIONS -
 2001/05/24       MAJORITY STOCKHOLDERS OF CORPORATIONS
 03-099-0042-KC   1999 CROP DISASTER PROGRAM                            $950,894
 2001/07/30
 03-601-0038-TE   CROP DISASTER ASSISTANCE PROGRAM                      $282,999
 2001/07/16       PAYMENTS

        TOTAL: FARM SERVICE AGENCY                              5     $1,235,927

AGENCY - RURAL HOUSING SERVICE

 04-004-0001-AT   WILLIAMSBURG ENTERPRISE COMMUNITY                     $221,179
 2001/08/30
 04-004-0004-HY   RRH TENANT INCOME VERIFICATION- VIRGINIA               $23,777
 2001/09/07
 04-099-0001-AT   GUARANTEED MULTI-FAMILY HOUSING LOANS
 2001/06/01
 04-099-0003-CH   COMMUNITY PROGRAM LOANS TO RIVER VALLEY
 2001/06/21       HEALTH SYSTEM
 04-099-0011-TE   MANAGEMENT OF RRH PROJECTS
 2001/06/22
 04-601-0004-KC   RURAL RENTAL HOUSING PROGRAM-INSURANCE                $596,665      $61,848
 2001/09/28       EXPENSES - PHASE II

        TOTAL: RURAL HOUSING SERVICE                            6       $841,621      $61,848

AGENCY - RISK MANAGEMENT AGENCY

 05-002-0001-TE   REVIEW OF WRITTEN AGREEMENTS                        $1,565,730
 2001/05/21
 05-099-0005-SF   INDEMNITY PAYMENTS TO PRUNE PRODUCERS IN                $7,182
 2001/08/15       CALIFORNIA - PRODUCER B
 05-099-0006-SF   INDEMNITY PAYMENTS TO PRUNE PRODUCERS IN               $17,451
 2001/05/08       CALIFORNIA - PRODUCER C
 05-601-0007-TE   WATERMELON CLAIMS IN SOUTH TEXAS                    $1,506,620
 2001/08/17

        TOTAL: RISK MANAGEMENT AGENCY                           4     $3,096,983

AGENCY - COMMODITY CREDIT CORPORATION

 06-401-0014-FM FY 2000 CCC FINANCIAL STATEMENTS
 2001/06/27

TOTAL: COMMODITY CREDIT CORPORATION                             1




38
                             AUDIT REPORTS RELEASED AND ASSOCIATED MONETARY VALUES
                                      BETWEEN APRIL 1 AND SEPTEMBER 30, 2001

                                                                     QUESTIONED    UNSUPPORTED     FUNDS BE
AUDIT NUMBER                                                           COSTS          COSTS         PUT TO
RELEASE DATE        TITLE                                            AND LOANS      AND LOANS     BETTER USE


AGENCY - FOREST SERVICE

 08-003-0007-SF   SIUSLAW NATIONAL FOREST - LAND ADJUSTMENT
 2001/09/10       PROGRAM, CORVALLIS, OR
 08-007-0001-AT   FS NORTHEASTERN EXPERIMENTAL STATION                $2,046,566
 2001/05/29       ACCOUNTING FOR TIMBER SALES
 08-099-0009-TE   CHALLENGE COST SHARE PROGRAM
 2001/06/22
 08-099-0011-TE   FOREST LEGACY PROGRAM - THE HANCOCK TRACT           $1,100,000     $1,100,000
 2001/04/27
 08-401-0011-AT   FY 2000 FS FINANCIAL STATEMENTS
 2001/05/04
 08-601-0025-SF   WORKING CAPITAL FUND ENTERPRISE SERVICES                                          $2,600,000
 2001/06/22

        TOTAL: FOREST SERVICE                                   6     $3,146,566     $1,100,000     $2,600,000

AGENCY - RURAL UTILITIES SERVICE

 09-401-0005-HQ FISCAL YEAR 2000 RURAL TELEPHONE BANK
 2001/04/05     MANAGEMENT ISSUES

        TOTAL: RURAL UTILITIES SERVICE                          1

AGENCY - NATURAL RESOURCES CONSERVATION SERVICE

 10-017-0002-HY   KAJAX ENGINEERING,INC., INCURRED COST
 2001/04/26       FYE DECEMBER 31, 1997
 10-017-0005-KC   ALLIED RECLAIMING SERVICES,                                                        $179,441
 2001/07/31       AUDIT OF CONTRACT CLAIM

 TOTAL: NATURAL RESOURCES CONSERVATION SERVICE                  2                                    $179,441

AGENCY – OFFICE OF THE CHIEF FINANCIAL OFFICER

 11-401-0007-FM FY 2000 NATIONAL FINANCE CENTER REVIEW OF
 2001/07/11     INTERNAL CONTROL STRUCTURE

 TOTAL: OFFICE OF THE CHIEF FINANCIAL OFFICER                   1

AGENCY - FOOD SAFETY AND INSPECTION SERVICE

 24-601-0001-FM REVIEW OF FSIS STAFFING AND BUDGETARY
 2001/04/04     MANAGEMENT

 TOTAL: FOOD SAFETY AND INSPECTION SERVICE                      1

AGENCY – NATIONAL AGRICULTURAL STATISTICS SERVICE

 26-099-0001-FM SECURITY OF NASS INFORMATION TECHNOLOGY
 2001/05/14     RESOURCES

 TOTAL: NATIONAL AGRICULTURAL STATISTICS SERVICE                1

AGENCY - FOOD AND NUTRITION SERVICE

 27-002-0003-TE   FSP - QUALITY CONTROL
 2001/05/08
 27-010-0023-SF   LOS ANGELES UNIFIED SCHOOL DISTRICT’S
 2001/09/28       ADMINISTRATION OF CACFP
 27-017-0020-HY   FY 1998 & 1999 ABT ASSOCIATES INCURRED COST              $440           $440
 2001/08/10       AUDIT




                                                                                                            39
                               AUDIT REPORTS RELEASED AND ASSOCIATED MONETARY VALUES
                                        BETWEEN APRIL 1 AND SEPTEMBER 30, 2001

                                                                       QUESTIONED    UNSUPPORTED     FUNDS BE
AUDIT NUMBER                                                             COSTS          COSTS         PUT TO
RELEASE DATE        TITLE                                              AND LOANS      AND LOANS     BETTER USE


 27-099-0013-HY   EBT SYSTEM - DISTRICT OF COLUMBIA
 2001/06/19
 27-099-0014-SF   EBT SYSTEM DEVELOPMENT - STATE OF WASHINGTON
 2001/04/13
 27-099-0015-SF   FOOD SERVICE MANAGEMENT COMPANIES
 2001/04/12
 27-099-0016-SF   FOOD STAMP PROGRAM ADMINISTRATIVE COSTS -             $2,207,662
 2001/06/12       STATE OF WASHINGTON
 27-099-0017-SF   STATE OF HAWAII - EBT SYSTEM DEVELOPMENT
 2001/09/06       REVIEW
 27-099-0018-HY   FNS SECURITY OF INFORMATION TECHNOLOGY
 2001/09/05       RESOURCES
 27-601-0012-KC   FOOD SERVICE MANAGEMENT COMPANIES                     $3,572,137      $756,311
 2001/05/11
 27-601-0024-CH   NSLP - FOOD SERVICE MANAGEMENT COMPANIES-MWR          $3,537,912
 2001/09/06
 27-601-0026-CH   FSP CONTRACTS WITH PRIVATE VENDORS FOR ON-
 2001/04/04       SITE RETAILER VISITS

        TOTAL: FOOD AND NUTRITION SERVICE                         12    $9,318,151      $756,751

AGENCY - RURAL BUSINESS-COOPERATIVE SERVICE

 34-099-0002-AT   BUSINESS AND INDUSTRY LOAN PROGRAM OMNIVEST           $4,052,351
 2001/09/14       RESOURCES INC.
 34-601-0002-SF   LENDER SERVICING OF B&I GUARANTEED LOANS -            $2,350,965     $2,350,965
 2001/08/31       LENDER IN ARIZONA
 34-601-0004-SF   LENDER SERVICING OF B&I GUARANTEED LOANS              $2,365,000     $2,365,000
 2001/09/12 -     LENDER B IN ARIZONA
 34-601-0005-SF   LENDER SERVICING OF B&I GUARANTEED LOANS
 2001/06/11 -     CALIFORNIA - LENDER B

        TOTAL: RURAL BUSINESS-COOPERATIVE SERVICE                 4     $8,768,316     $4,715,965

AGENCY - MULTIAGENCY

 50-018-0010-HY   PUERTO RICO DEPARTMENT OF AGRICULTURE, A-128,
 2001/05/29       6/30/96
 50-020-0015-CH   SINGLE AUDIT - MICHIGAN DEPT. OF EDUCATION              $114,000      $114,000
 2001/07/11
 50-020-0078-HY   VIRGIN ISLANDS, 9/30/95, A-128                        $1,057,339     $1,057,339
 2001/06/06
 50-021-0002-HY   COMMONWEALTH OF PENNSYLVANIA, A-133,
 2001/06/01       6/30/2000
 50-021-0004-SF   A-133 AUDIT - CITY OF SAN JOSE FOR FYE
 2001/07/12       JUNE 30, 2000
 50-099-0002-TE   RESOLUTION OF PRODUCTION DIFFERENCES FOR CROP            $56,896
 2001/05/14       INSURANCE AND LOAN DEFICIENCY PAYMENTS
 50-099-0003-TE   GRANTS/AGREEMENTS WITH THE NATIONAL FISH AND             $65,934                    $2,970,003
 2001/07/20       WILDLIFE FOUNDATION
 50-099-0026-FM   PURCHASE CARD MANAGEMENT SYSTEM
 2001/08/16
 50-099-0030-FM   REVIEW OF PRIVACY CONSIDERATIONS WITHIN USDA
 2001/05/01       AGENCY INTERNET SITES
 50-099-0032-FM   FY 2001 USDA GOVERNMENT INFORMATION SECURITY
 2001/08/31       REFORM ACT REPORT
 50-601-0003-CH   ASSESSMENT OF APHIS & FSIS INSPECTION
 2001/07/23       ACTIVITIES TO PREVENT THE ENTRY OF
                  FOOT AND MOUTH DISEASE

        TOTAL: MULTIAGENCY                                        11    $1,294,169     $1,171,339     $2,970,003




40
                          AUDIT REPORTS RELEASED AND ASSOCIATED MONETARY VALUES
                                   BETWEEN APRIL 1 AND SEPTEMBER 30, 2001

                                                                     QUESTIONED    UNSUPPORTED    FUNDS BE
AUDIT NUMBER                                                           COSTS          COSTS        PUT TO
RELEASE DATE     TITLE                                               AND LOANS      AND LOANS    BETTER USE


AGENCY - RURAL DEVELOPMENT

 85-099-0001-HQ COOPERATIVE AGREEMENT-WASHINGTON STATE DEPT
 2001/09/10     OF COMMUNITY, TRADE, AND ECONOMIC DEVELOPMENT

       TOTAL: RURAL DEVELOPMENT                                 1

AGENCY - CHIEF INFORMATION OFFICER

 88-099-0003-FM FY 2000 NITC GENERAL CONTROLS REVIEW
 2001/09/21

       TOTAL: CHIEF INFORMATION OFFICER                         1

TOTAL: RELEASE - NATIONWIDE                                     58   $27,701,733    $7,805,903     $5,749,444




                                                                                                            41
Abbreviations of Organizations
AMS       Agricultural Marketing Service
APHIS     Animal and Plant Health Inspection Service
ARS       Agricultural Research Service
ATF       (Bureau of) Alcohol, Tobacco, and Firearms
CCC       Commodity Credit Corporation
CR        Office of Civil Rights
CSREES    Cooperative State Research, Education, and Extension Service
DCIS      Defense Criminal Investigative Service
DSHS      Department of Social Health Services (Washington State)
FAS       Foreign Agricultural Service
FBI       Federal Bureau of Investigation
FDA OCI   U.S. Food and Drug Administration, Office of Criminal Investigations
FNS       Food and Nutrition Service
FS        Forest Service
FSA       Farm Service Agency
FSIS      Food Safety and Inspection Service
GIPSA     Grain Inspection, Packers, and Stockyard Administration
IRS CI    Internal Revenue Service, Criminal Investigation
NASS      National Agricultural Statistics Service
NFC       National Finance Center
NFWF      National Fish and Wildlife Foundation
NITC      National Information Technology Center
NRCS      Natural Resources Conservation Service
OCFO      Office of the Chief Financial Officer
OCIO      Office of the Chief Information Officer
OIG       Office of Inspector General
OMB       Office of Management and Budget
RBS       Rural Business-Cooperative Service
RHS       Rural Housing Service
RMA       Risk Management Agency
USDA      U.S. Department of Agriculture
WECC      Williamsburg Enterprise Community Commission, Inc.
